<html>
<title> - PROSPECTS FOR AFGHANISTAN'S 2014 ELECTIONS</title>
<body><pre>[Senate Hearing 113-139]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-139
 
               PROSPECTS FOR AFGHANISTAN'S 2014 ELECTIONS 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

86-150 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JEFF FLAKE, Arizona
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona
TOM UDALL, New Mexico                JOHN BARRASSO, Wyoming
CHRISTOPHER MURPHY, Connecticut      RAND PAUL, Kentucky
TIM KAINE, Virginia
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

          ROBERT P. CASEY, Jr., Pennsylvania, Chairman        

BARBARA BOXER, California            JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         MARCO RUBIO, Florida
JEANNE SHAHEEN, New Hampshire        RON JOHNSON, Wisconsin
CHRISTOPHER A. COONS, Delaware       JOHN McCAIN, Arizona

                              (ii)        


                            C O N T E N T S

                              ----------                              
                                                                   Page

Casey, Hon. Robert P., Jr., U.S. Senator from Pennsylvania, 
  opening statement..............................................     1
Chayes, Sarah, senior associate, South Asia Program, Carnegie 
  Endowment for International Peace, Washington, DC..............    22
Boot, Max, Jeane J. Kirkpatrick Senior Fellow for National 
  Securities, Council of Foreign Relations, Washington, DC.......    24
    Prepared statement...........................................    27
Pearce, Hon. David, Deputy Representative for Afghanistan and 
  Pakistan, U.S. Department of State, Washington, DC.............     4
    Prepared statement...........................................     6
    Responses to questions submitted for the record by Senator 
      Robert P. Casey, Jr........................................    36
Sedney, David, Deputy Assistant Secretary of Defense for 
  Afghanistan, Pakistan, and Central Asia, U.S. Department of 
  Defense, Washington, DC........................................     9
    Prepared statement...........................................    10
    Responses to questions submitted for the record by Senator 
      Robert P. Casey, Jr........................................    38
Wilder, Dr. Andrew, director, Afghanistan and Pakistan Programs, 
  U.S. Institute of Peace, Washington, DC........................    16
    Prepared statement...........................................    18

                                 (iii)


                      PROSPECTS FOR AFGHANISTAN'S 
                             2014 ELECTIONS

                              ----------                              


                         TUESDAY, MAY 21, 2013

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert P. 
Casey, Jr. (chairman of the subcommittee) presiding.
    Present: Senators Casey and McCain.

        OPENING STATEMENT OF HON. ROBERT P. CASEY, JR., 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. Well, this hearing will come to order. We 
are sorry about the delay. I know our witnesses understood that 
we just had a longer session regarding Syria and important work 
that had to be done. So we are grateful for the patience of our 
witnesses.
    I want to thank our witnesses for being here today.
    I will have a statement I will try to get through as 
quickly as I can.
    I am joined by Senator McCain, and I am grateful for his 
presence here.
    Today the Senate Foreign Relations Subcommittee on Near 
Eastern and South and Central Asian Affairs meets to discuss 
Afghanistan's Presidential and provincial elections scheduled 
to take place on April 5, 2014. While these elections are 
almost a year away, preparations must begin now, given that 
their outcome will determine the success or failure of the 
international effort in Afghanistan. Simply put, the stakes 
could not be higher.
    These elections come at a pivotal time. A full-fledged 
security transition from international forces to Afghan forces 
is already underway. The United States is deliberating troop 
levels post-2014 and negotiating a bilateral security agreement 
with the Afghan Government. The success of the security 
transition depends in large part on political stability and 
whether a majority of the Afghan people see their next 
government as legitimate and acceptable. If not, we can expect 
ongoing political strife and possibly a return to civil war.
    That is why preparing for successful and credible elections 
must be one of our top priorities in Afghanistan. The American 
people and the Congress will be watching this election process 
closely as we determine future investments in this important 
relationship.
    As we begin this conversation about the 2014 Afghan 
Presidential and provincial elections, I want to make one thing 
clear at the outset. The United States nor others in the 
international community should not be seen to interfere in 
these upcoming elections. This is an Afghan exercise, an Afghan 
election, whose outcome should be solely determined by the 
Afghan people. The U.S. role is to support an open, 
transparent, credible, and inclusive election process, but 
should in no way seek to determine the actual outcome.
    The United States does, however, have a stake in the 
election process, and the equation is quite simple. If these 
elections are seen as transparent, credible, and inclusive, the 
United States and Afghanistan's allies will continue to support 
Afghanistan's development and commitments made in the Tokyo 
Mutual Accountability Framework. If not, we can expect to see 
many countries, including the United States, possibly 
dramatically reduce funding and support for Afghanistan. After 
so many years of sacrifice by our service men and women, U.S. 
taxpayers will have no patience for a flawed election. United 
States support for independent electoral administration 
mechanisms and respect for the Afghan Constitution, reflect a 
respect for Afghanistan's sovereignty and a desire to ensure 
that hard fought gains for Afghanistan's democratic system are 
not lost.
    Furthermore, a transparent, credible, and inclusive 
election process will be an important determinant of the 
stability of the country. If key blocs in Afghanistan do not 
believe that the elections are inclusive and credible, we could 
face a similar scenario to the 1990s when disaffected factions 
expressed their political views through violence. It goes 
without saying that the United States and regional actors are 
deeply interested in ensuring that Afghanistan does not devolve 
into a civil war like it did then.
    Today Senator McCain and I introduced a Senate resolution 
which emphasizes our concern that a flawed election process 
could have a significantly negative impact on the stability of 
the country. We hope that this resolution will send a clear 
message to Afghan authorities that the United States is 
committed to investing in Afghanistan's future and it is 
largely contingent on the quality of the election process.
    So far, the election preparations have been hampered by a 
lack of a legal framework governing electoral bodies, their 
composition, and conduct. Last June, I sent a letter to 
Secretary Clinton expressing my concerns about the Independent 
Electoral Commission, the so-called IEC, and the Electoral 
Complaints Commission known as ECC. Since then, there has been 
little progress made by Afghan authorities. President Karzai 
recently vetoed a law passed by Parliament which would set the 
terms for the Independent Electoral Commission and the 
Complaints Commission. The independence of these bodies is 
critical because it speaks to the ultimate impartiality of the 
elections and helps to build confidence in the electoral 
process.
    Moving forward, I would recommend that the U.S. 
administration consider the following measures--only three--to 
improve the prospects for the elections.
    No. 1, the United States should send a clear message to the 
Afghan people that we consider the integrity of this process to 
be a top priority and have dedicated key personnel to the task. 
The election does not appear to be the sole purview of any one 
of our five Ambassadors on the ground in Kabul. Like we did for 
the 2009 elections, the United States should designate a 
senior-level position in Embassy Kabul to focus solely on 
coordinating policies and programs for the elections. Former 
National Security Advisor, Stephen Hadley, and former White 
House Chief of Staff, John Podesta, have also made this 
important recommendation to the administration, and I hope it 
is considered seriously.
    No. 2, the United States should continue to reiterate the 
importance of holding the election on April 5, 2014. Allowing 
the election to slip would diminish public confidence in the 
process and could have security implications if international 
forces draw down troops throughout the course of the year.
    Third, the United States should continue to call for the 
adoption of an election law that establishes a transparent and 
inclusive Electoral Commission and Complaints Commission.
    Fourth, the United States should express its support for 
the appointment of Supreme Court Justices to replace those 
whose terms have expired.
    During President Karzai's visit to Washington in January, 
he reiterated his intention to step down at the end of the 
term. The President told me in a meeting and he told others at 
the meeting that he wanted to be the first democratically 
elected President of Afghanistan to transfer power to the 
second democratically elected President. This is a powerful and 
inspiring statement. President Karzai has a golden opportunity 
to cement a positive and long-lasting legacy with these 
elections, one that I hope--I hope--he will seize.
    The United States has sacrificed greatly in support of a 
stable and prosperous Afghanistan free from extremism. Based on 
these sacrifices and any future investments in the country, the 
United States should clearly and unequivocally continue to 
express support in word and deed for a democratic culture based 
upon transparent, credible, and inclusive election processes 
that protect the rights of all Afghans.
    So today, we are fortunate to have with us two witnesses 
who can speak the United States policy in Afghanistan: the 
State Department's Deputy Special Representative for 
Afghanistan and Pakistan, Ambassador David Pearce, who is with 
us; and Dr. David Sedney, the Deputy Assistant Secretary of 
Defense for Afghanistan, Pakistan, and Central Asia. I 
appreciate both being here and we will get to your statements 
in 1 minute, 1 brief minute.
    Our second panel will be Dr. Andrew Wilder, director of 
Afghanistan and Pakistan programs at the U.S. Institute of 
Peace; Ms. Sarah Chayes, senior fellow at the Carnegie 
Endowment for International Peace; and Mr. Max Boot, the Jeane 
J. Kirkpatrick Senior Fellow for National Security Studies at 
the Council on Foreign Relations.
    We thank all for being with us today, and Ambassador 
Pearce, we will start with your statement. If you can try to 
keep it to 5, I promise my questions will be short.

 STATEMENT OF HON. DAVID PEARCE, DEPUTY SPECIAL REPRESENTATIVE 
    FOR AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Pearce. Thanks a lot, Senator. It is great to be 
here, and I really appreciate the invitation.
    Senator McCain, good to see you again too. I think the last 
time was in Kabul in Ambassador Crocker's era when I was the 
Assistant Chief of Mission there, sir.
    First of all, Ambassador Dobbins was just sworn in on May 
10, and he tells me that he would like me to convey the fact 
that he is looking forward to working with you as well, sir, in 
the future.
    And on behalf of both Secretary Kerry and Ambassador 
Dobbins, let me say that we really do appreciate the role of 
this subcommittee and all the attention that you are bringing 
to this important issue.
    And I would say, Senator, you have already stolen a lot of 
my talking points. So I think it will be easier for me to 
dispense with part of my statement here.
    But as requested, I will try to focus on the elections, and 
I can tell you that Secretary Kerry has no higher priority. A 
peaceful transition of Presidential authority, together with 
the provincial council elections that will happen at the same 
time, can cement the gains of Afghan society and set the 
trajectory for Afghanistan's stability long into the future. So 
as you said, sir, the stakes are high.
    For more than a decade, President Karzai has led the 
country through some very difficult times, but the biggest part 
is yet to come, and that is handing over power next year. He 
has stated repeatedly that he will honor the constitution and 
step down. And as you said, indeed, nothing will do more to 
cement his legacy than that.
    Success requires that the election results be acceptable to 
a broad majority of Afghans, including those who voted for 
losing candidates, this so that Afghan citizens throughout the 
country accept the winner as legitimate President. A peaceful 
and constitutional transfer of power of this kind will send a 
strong signal to all, including the Taliban, about the 
resilience of Afghanistan's democratic institutions.
    As Secretary Kerry said in January right here, if we do not 
succeed in helping the Afghans administer an acceptable 
election, it will be very difficult to convince the American 
people and our allies to stay engaged in this effort.
    So let me review first what the Afghans themselves are 
doing and then a little bit about what we are doing.
    First of all, in security, the security ministries--and 
David will address this in more detail--in regular consultation 
with ISAF, are engaged in active planning. The Independent 
Elections Commission has produced a list of about 7,000 polling 
stations which the ministries are reviewing, and the Afghan 
forces will take the lead on election day, as in the past, but 
we will still have forces on the ground to provide appropriate 
support.
    But meanwhile, with encouragement from the international 
community, the Elections Commission has outlined a timeline for 
the elections, designed a public relations campaign to educate 
voters about the process, and developed a comprehensive 
operational plan to combat fraud and increase participation, 
including of women. The IEC is also undertaking efforts to 
conduct voter registration to ensure that all who are eligible 
to vote will have an opportunity to do so.
    These are all positive developments, but that is not to say 
that there are not some challenges. One, of course, is 
security. The Afghans are holding an election amid an ongoing 
insurgency in a country where institutions are still 
developing. We expect the Taliban to try to disrupt the process 
both in the lead up to and on election day, as they have in the 
past.
    The next issue, as you mentioned, sir, is the necessary 
legislation to establish a sound electoral framework. It has 
not yet been finalized, and time is running short as candidates 
prepare to form their tickets and register in September. 
President Karzai and the Parliament are working on these 
issues. One of the key tasks is standing up a truly independent 
electoral complaints body to adjudicate electoral disputes and 
a credible appointment of a new IEC chairperson. While Afghans 
must decide precisely what these mechanisms should look like 
and who belongs in these positions, the process must be 
credible. We believe an electoral framework, based on law and 
founded on broad and inclusive consultations, is the best way 
to do that.
    Finally, as you said, there are Supreme Court Justices 
whose constitutional terms have expired, and it is past time 
for them to be removed and replaced. This will help legitimize 
the Court's decisions and solidify confidence in the process. 
This is significant because the Supreme Court may rule, as it 
has in the past, on constitutional issues related to the 
elections.
    And as for the United States and the international 
community, well, first let me say what we are not going to do. 
The United States will not take sides or endorse any candidate 
in these elections.
    On security I will defer to David Sedney, but I will note 
that we are focusing particular efforts on improved access for 
women to polling centers by supporting the IEC gender strategy 
and recruitment of qualified female election staff, promoting 
public outreach to women, and ensuring that female searchers 
are available to secure polling locations.
    And as I said, we have three near-term electoral 
priorities: the legislation to make sure we have got an 
independent body to adjudicate complaints, appointment of a 
credible IEC commissioner, followup on the IEC operational 
plan.
    And then to advance these, Senator, the Embassy in Kabul is 
engaging intensively with election officials, security 
ministries, Parliament, opposition, political parties, civil 
society, and women's organizations. We emphasize that all 
parties should stay engaged in the election preparations to 
ensure a good process and avoid a disputed outcome. We speak 
with political leaders about the importance of our bilateral 
partnership and the need for this work to continue with the 
next President. We discuss our security relationship, Afghan 
commitments to the Tokyo Framework, support for an Afghan peace 
process, and preserving the gains of the last 10 years, 
including protections for women and minorities.
    Afghan political players understand that a peaceful 
political transition, following an inclusive, unifying 
electoral process, is critical not just for Afghan stability 
but also to sustaining international commitments.
    Senator, we need to remain realistic and recognize that 
these elections will not be perfect. There will be 
irregularities. Security will be such probably in some parts of 
the country that people may not be able to vote. And that is 
why we have been providing significant financial and program 
assistance to help our Afghan partners build credible and 
independent electoral institutions. We coordinate closely with 
the United Nations and other donors on training, public 
information campaigns, fraud mitigation, domestic observation 
efforts, and improved ways to identify eligible voters.
    As the Secretary said in Kabul in February, these elections 
should represent a unifying moment for Afghanistan. They are 
the best chance Afghans will have to heal the wounds of the 
past decade and to begin the process of putting the conflict 
behind them.
    So, Mr. Chairman, we look forward to continuing to work 
with you and the committee and the subcommittee and look 
forward to taking your questions today, sir.
    [The prepared statement of Ambassador Pearce follows:]

            Prepared Statement of Ambassador David D. Pearce

                              introduction
    Thank you, Senator Casey, for the invitation to appear before the 
subcommittee. Ambassador Dobbins was just sworn in as Special 
Representative for Afghanistan and Pakistan on May 10 and asked me to 
convey to the members of the subcommittee that he looks forward to 
working with you.
    On behalf of both Secretary Kerry and Ambassador Dobbins, let me 
just say the Department of State appreciates the helpful role that the 
subcommittee has played in focusing attention on a host of important 
issues in South and Central Asia, and particularly your focus on 
Afghanistan. Your travel to the region and your continuing 
conversations with Afghan officials signal congressional attention to 
all of these issues.
    Today, as requested, I will focus on the elections, and I can tell 
you Secretary Kerry has no higher priority. They are at the very center 
of all that we are trying to achieve. In our Strategic Partnership 
Agreement, Afghanistan reaffirmed its commitment to democratic 
governance and free, fair, and transparent elections. The 2014 
Presidential election, now less than a year away, will be a milestone 
in Afghanistan's democratic development.
    The elections will be an opportunity for Afghan men and women to 
choose what kind of country they want to live in, what kind of leaders 
they want to empower, and, ultimately, how they will resolve the 
conflict that has divided their country for so many years. The 
Presidential election, together with the 2014 provincial council 
elections, will cement the gains of Afghan society and set the 
trajectory for Afghanistan's stability long into the future.So the 
stakes are high.
    The elections are not happening in a void. Today, Afghans are 
defending their country against the insurgents, and our troops are 
starting the long journey home. This transition is extremely 
challenging--and it is critical we get it, along with the election and 
our long-term partnership, right. That is why we signed the Strategic 
Partnership Agreement with Afghanistan, and it is why we have placed 
such great emphasis on the Tokyo Mutual Accountability Framework. Both 
link the success of the elections to our long-term partnership and to 
the continued support of the international community.
    For pessimists out there, I'd like to point out that Pakistan just 
came through an election campaign with violence, fraud allegations, and 
other enormous challenges, but few doubt that the results represent the 
voice of the Pakistani people. While the parallels are not precise, 
Afghans nevertheless can take heart in this democratic transition and 
understand that they control the direction of their future.
    The United States firmly believes that the future stability of 
Afghanistan rests on a peaceful transition of political authority from 
President Karzai to his successor in 2014 following a democratic, 
inclusive, and credible election. For more than a decade, President 
Karzai has led the country through some very transformative and 
difficult times, but the biggest piece is yet to come: handing over 
power next year. Today's hearing takes place exactly 1 year before the 
last day of President Karzai's term of office. He has stated repeatedly 
that he will honor the Constitution and step down, and nothing will 
cement his legacy more as an Afghan patriot and democratic leader. For 
our part, we will do all we can to help ensure that a year from today, 
Afghanistan experiences the first peaceful and constitutional transfer 
of power in its history.
    Success requires that the election results be acceptable to a broad 
majority of Afghans--including those who voted for losing candidates--
so that Afghan citizens throughout the country accept the winner as the 
legitimate President. Such a handover of power will send a strong 
signal to all--including the Taliban--about the resilience of 
Afghanistan's democratic institutions and the paramount importance of 
the Constitution and rule of law.
    After years of service in the Senate and frequent trips to 
Afghanistan, no one understands better than Secretary Kerry the stakes 
involved. As he said here in his testimony in January, if we don't 
succeed in helping Afghans administer an acceptable election, it will 
be very difficult to convince the American people and our allies to 
stay engaged in this effort.
                 afghan preparations for the elections
    I would like to report to you on what the Afghans are doing 
themselves to make Secretary Kerry's words a reality. The Afghan 
Government, election officials, opposition leaders and civil society 
understand that having a sound democratic framework for the elections 
in place well in advance of election day is critical to Afghan 
stability, as well as to sustaining international commitments to 
Afghanistan. With encouragement from the international community, the 
Independent Election Commission (IEC) has outlined a timeline for the 
elections, designed a public relations campaign to educate voters about 
the process, and developed a comprehensive operational plan to combat 
fraud and increase participation, including of women. The IEC is also 
undertaking efforts to conduct voter registration to ensure that all 
who are eligible to vote will have the opportunity to do so.
    Security preparations are well under way. The Afghan security 
ministries, in consultation with ISAF, are engaged in active planning, 
including for access of women to polling stations. The IEC has produced 
a list of polling stations, which the security ministries are 
reviewing. Afghan forces will take the lead for security on election 
day as in the past, but we will still have forces on the ground to 
provide appropriate support.
    These are all positive developments. And though the planning 
process can be slow, it is achieving results. This is not to say there 
are not serious challenges. The necessary legislation to establish a 
sound electoral framework has not yet been finalized, and time is 
running short as candidates prepare to form their tickets and register 
in September. President Karzai and the Parliament are working on these 
issues. One of the key tasks is standing up a truly independent 
electoral complaints body to adjudicate electoral disputes and a 
credible appointment of a new IEC chairperson. While Afghans must 
decide precisely what these mechanisms should look like, and who 
belongs in these positions, the process must be credible. We believe an 
electoral framework based on law, founded on broad and inclusive 
consultations, is the best way to achieve that.
    Additionally, it is important that the Supreme Court justices whose 
constitutional terms have expired, be removed and replaced. This will 
help legitimize the Court's decisions and solidify confidence in the 
process. This is critical as the Supreme Court may rule, as in the 
past, on fundamental constitutional matters related to the elections.
    And apropos of security, let's not forget that Afghans are faced 
with holding an election amid an ongoing insurgency in a country in 
which institutions are still developing. We expect the Taliban to try 
to disrupt the process both in the lead-up to and on election day as 
they have in the past. We have to be realistic and acknowledge that 
this will be a challenge to the process.
     support from the united states and the international community
    What are we doing to keep this process on track? First, let me tell 
you what we will not do. The United States will not take sides or 
endorse any candidate in these elections, as ultimately this election 
belongs to the Afghans. A fair and inclusive electoral process and a 
unifying, widely accepted outcome are key to achieving our goal of 
strengthening Afghan democracy.
    We have identified three near-term priorities that we believe will 
lay a solid foundation for credible elections. First, as I mentioned, 
this includes Parliament passing legislation that to establish a truly 
independent body to adjudicate complaints. Second, the IEC must be led 
by a credible and competent commissioner. And third, the IEC needs to 
finalize and begin to implement its operational plan. Our colleagues at 
U.S. Embassy Kabul are engaging intensively with Afghans across the 
board to achieve these goals. This includes election officials, 
security ministries, parliament, opposition, political parties, civil 
society, and women's organizations in support of Afghan aspirations for 
elections that are as free, fair, and transparent as they can possibly 
be.
    And while the United States will not support any particular 
candidate, we believe that Afghans will want their next President to be 
someone who can work in close partnership with the international 
community to achieve our mutual interests. And so we are speaking with 
political leaders on the importance of our bilateral partnership and 
the need for our important work to continue with Afghanistan's next 
President. This includes important issues like our security 
relationship, Afghan commitments on the Tokyo framework, support for an 
Afghan peace process, and preserving the gains of the last 10 years, 
including protections for women and minorities. We also emphasize that 
all parties should stay engaged in the election preparations to ensure 
a good process and avoid a disputed outcome.
    We see signs that Afghans are now working to identify candidates 
well in advance of the elections. Key political leaders from major 
parties and groupings have been engaging with each other about who 
should run and on what platforms. Civil society and women's groups are 
actively engaged with government, political leaders, and the 
international community. We applaud efforts to put aside old 
animosities and forge consensus, engage in genuine national dialogue, 
and place the good of the nation ahead of factional or personal 
interests. That's what democracy, at its best, is all about.
    Of course, we need to remain realistic and recognize that these 
elections will not be perfect--there will be irregularities and 
security will be such in parts of the country that people may not be 
able to vote. This is why we have been providing significant financial 
and program assistance to help our Afghan partners build credible and 
independent electoral institutions. We coordinate closely with the U.N. 
and other donors on training, public information campaigns, fraud 
mitigation, domestic observation efforts, and improved ways to identify 
eligible voters.
    We are committed to supporting IEC plans to combat fraud by better 
controlling ballots and training and vetting its staff. We view 
transparency is key to reducing fraud, and therefore we are also 
encouraging a strong program of domestic monitoring of elections.
    On security, we are strengthening the capacity of the ANSF to 
secure the elections with ISAF support. As part of this we are focusing 
particular efforts on ensuring women have greater access to polling 
centers than in prior election cycles by supporting the IEC's gender 
strategy and recruitment of qualified female election staff, promoting 
public outreach to women, and ensuring that female searchers are 
available to secure polling locations.
    Most importantly, we regularly discuss with our Afghan partners the 
nature of our enduring partnership. Afghan political players and 
members of civil society understand that a peaceful political 
transition following an inclusive and unifying electoral process is 
critical not just for Afghan stability but also to sustaining 
international commitments to Afghanistan made last year in Chicago and 
Tokyo.
                               conclusion
    National dialogue among all Afghans through political processes is 
critical to ending the decades of conflict. This will take time. But 
successful elections can promote this dialogue and provide a real spark 
to a peace process, as they will send a strong signal that 
Afghanistan's democratic institutions enshrined in its 2004 
Constitution are an enduring reality. Pluralism and tolerance are 
bedrock principles of democracy. These elections offer an opportunity 
to bring many Afghans into the political process who have previously 
stayed on the margins.
    As Secretary Kerry said in Kabul in February, the elections should 
represent a unifying moment for Afghanistan. We see the success of the 
elections as critical to our own mission and as giving the Afghans the 
best chance they have at healing the wounds of the past decade and 
beginning the process of putting the conflict behind them.
    Mr. Chairman, we look forward to continuing to work with you, your 
office, and this committee on these important issues in the months 
ahead. And I look forward to taking your questions today.

    Senator Casey. Thanks very much.
    Mr. Sedney.

   STATEMENT OF DAVID SEDNEY, DEPUTY ASSISTANT SECRETARY OF 
   DEFENSE FOR AFGHANISTAN, PAKISTAN, AND CENTRAL ASIA, U.S. 
             DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Mr. Sedney. Thank you very much, Mr. Chairman, Senator 
McCain.
    I also had the pleasure of hosting you in Afghanistan many 
years ago when we were together in the rocks beneath the 
destroyed bombing and statues. I recall your conversation with 
a young Afghan boy. It was one really inspiring moment. So 
thank you, sir.
    Today, from the Department of Defense, I am here to review 
where we are in security-related planning for the political 
transition next year. But first I want to make sure I put this 
in the context of our overall effort in Afghanistan and the 
historic transition that the security forces are undergoing 
right now.
    In 2008, after years of underinvestment in Afghanistan, the 
Taliban had resurged and were at the gates of Kabul and 
Kandahar. In many ways, failure stared us in the face.
    Following a surge to Afghanistan of military and civilians, 
greater investment in the Afghan National Security Forces, we 
have arrived at a point where the Afghan security forces number 
close to 350,000 and are in the process this year of taking the 
lead for security in their entire country, with our continuing 
support, but they are in the lead. Over 90 percent of the 
operations that the Afghan security forces are carrying out--of 
security operations in Afghanistan are now being carried out 
with Afghanistan forces in the lead. That is what is happening 
this summer.
    This will be preparation for the Afghan security forces 
taking the lead, as you said, Mr. Chairman, for an Afghan-led 
elections process in the spring of next year. This is a testing 
time for the Afghan security forces as they take up this 
challenge of the lead. So far, the returns are very good in 
terms that they are meeting that challenge. There are areas of 
success and areas of failure. So at the same time that the 
election preparation is going on, the Afghan security forces 
are stepping up to this new challenge.
    Wherever the Taliban have taken territory from the Afghan 
security forces, the Afghan security forces have, in turn, 
reattacked and taken it back. They are in the process of 
building that security that will be necessary for the 
elections.
    As the Afghan security forces step into that new role, they 
are also working with the Elections Commission and the rest of 
the Afghan Government to prepare for the elections next year. 
The entities involved, primarily the Ministry of Interior and 
Ministry of Defense, have reviewed what happened in 2008 and 
2009 and 2010, and similar to that, a three-tier security model 
will be used with the Ministry of Interior, Ministry of 
Defense, and the National Director of Security, the 
intelligence agency responsible for providing security around 
the polling station in different layers.
    It is important to note that the planning and logistics 
capabilities of the Afghan security forces have improved 
greatly since 2008, 2009, and 2010, the last election cycle. 
They still have, however, a lot of challenges.
    This year, however, planning is well ahead of where it was 
5 years ago in 2008. The security ministries are completing 
security assessments, and we expect those to be done before 
candidate registrations in September of this year.
    In March, the IEC, working together with the security 
ministries, put forward a comprehensive operational plan, 
something that was not there in the 2009 and 2010 elections. 
This plan is a comprehensive document dealing with all the 
requirements for the elections. While not a security plan, it 
includes a discussion and a setting forth of security 
requirements that will enable the Ministry of Defense and 
Ministry of Interior to continue their planning and do a better 
job than 5 years ago.
    However, I would like to stress that there are challenges. 
While security planning, as I said, is ahead of where it was 5 
years ago, levels of violence are much higher in 2013 than they 
were in 2008 and 2009. As we draw down our forces, the stakes 
are higher and the complexity of the operation that the Afghan 
security forces will be undertaking is greater than that they 
faced in 2008 and 2009.
    However, the returns so far of the way the Afghan security 
forces are stepping up to the new tasks they are taking on this 
year give great promise that they will be able to meet the 
requirements of security for the elections in April of next 
year.
    With that, Mr. Senator, I look forward to your questions.
    [The prepared statement of Mr. Sedney follows:]

     Prepared Statement of Deputy Assistant Secretary David Sedney

    Chairman Casey, Ranking Member Risch, members of the subcommittee, 
thank you for this opportunity to provide the Department of Defense 
perspective on the current outlook for the Afghan Presidential and 
provincial council elections in 2014.
    Today, I plan to review the current state of security-related 
planning for a successful political transition next year. But first, I 
want to place the discussion in the context of our overall effort in 
Afghanistan and recognize the truly historic transition that is 
underway. Over 11 years ago, in response to one of the worst attacks on 
our homeland, the United States, together with our allies and partners, 
initiated a campaign in Afghanistan to disrupt, dismantle, and defeat 
al-Qaeda and its affiliates, with the mission to ensure that it would 
never again become a safe haven from which terrorists could launch 
attacks on the United States and to ensure the Taliban did not regain 
power through force. In 2008, after years of underinvestment in 
Afghanistan, the Taliban had resurged and were at the gates of Kabul 
and Kandahar. Failure stared us in the face. In 2009, after reviewing 
our Afghan policy, President Obama ordered a surge of U.S. troops and 
civilians to give us the chance to reverse the insurgency's momentum 
while, for the first time, effectively building an Afghan National 
Security Forces (ANSF) capable of defeating the Taliban. The 
President's message drew strong response from our coalition partners 
and new commitments from many countries that had previously stood aside 
from the Afghan effort as they saw it as too little and too late. Ever 
more importantly, Afghans also saw new hope and began flooding in to 
join the Afghan security forces in unprecedented numbers. These forces 
grew from roughly 170,000 in May 2009 to over 335,000 today currently 
fielded or in training, and we went from too few recruits to turning 
away tens of thousands. As a result of the concerted effort by the 
Afghans, U.S. and coalition partners along multiple lines of effort--
military, diplomatic, reconstruction, governance, and economic 
development--we have seen a remarkable turnaround in Afghanistan, most 
dramatically in the security area. The ANSF grew from a static force 
with severely limited combat capability to a force conducting corps-
level combined army and police operations, as well as border security 
enforcement.
    Over the past 12 months the ANSF, particularly the Afghan National 
Army (ANA), have made remarkable progress--now leading over 80 percent 
of operations and carrying out many unilaterally. They have succeeded 
well beyond expectations and when they have encountered tactical 
failure--the loss of territory or a battlefield setback--they have re-
attacked, retaken territory, and pushed the Taliban back. The Afghan 
Government will soon announce Milestone 2013, at which point the 
Afghans will assume the security lead for 100 percent of the Afghan 
population and the International Security Assistance Force (ISAF) will 
shift to a support-role. The Afghans are entering a fundamentally new 
phase as they assume the sovereign responsibilities that will put them 
on a path toward self-reliance. Holding a legitimate election process 
that enables a peaceful transition of power will be a milestone in 
Afghanistan's path forward.
    The Presidential and provincial council elections, set for April 5, 
2014, hold promise to be the first constitutional transfer of power 
from one President to another in Afghanistan's history. For the first 
time, Afghans will be solely responsible for administering the process 
and providing security with international forces in support only. A 
credible process with the fullest possible voter participation is 
critical. The challenge for Afghans will be to demonstrate that 
elections have qualitatively improved since 2009-2010 with the 
implementation of better fraud-mitigation procedures and more polling 
stations accessible to eligible voters. Helping Afghans achieve a 
peaceful transfer of authority in 2014 is one of the administration's 
highest priorities in Afghanistan, with DOD focused on the security 
front. However, I want to highlight that this will be an Afghan-led 
process. In accordance with the overall security transition and respect 
for Afghan sovereignty, ISAF, including U.S. forces, will maintain a 
support role during the elections process: ISAF will be prepared to 
take action only when--and only if--requested by the Afghan Government. 
Support will likely be in logistics, intelligence, route clearance, and 
in extremis support. As a contingency, ISAF will be prepared to deploy 
quick reaction forces in the event the ANSF are not able to provide for 
the safety of members of the international community, such as election 
observers. Together with their Afghan counterparts, coalition forces 
will have the ability to provide a rapid response in the event security 
deteriorates beyond the ANSF's ability to control.
    There are several Afghan entities that play a role in security 
planning for the upcoming election. While the Independent Election 
Commission (IEC) has the lead in election administration and 
supervision, the Ministry of Interior (MoI) has an overall coordinating 
role for security of the electoral process, with support from the 
Ministry of Defense (MoD) and the National Directorate of Security 
(NDS). Similar to the 2009-2010 election security model, a three-tier 
approach will be employed to secure the polling centers, with MoI, MoD, 
and NDS responsible for providing security around the polling stations. 
It is important to note that the ANSF conducted security for earlier 
elections, and their planning and logistics capabilities have improved 
considerably since then. Planning has benefited from lessons learned in 
previous elections. Furthermore, the Afghan forces providing security 
for this election has almost doubled in number since 2009.
    Following lessons learned from the 2009 and 2010 elections, the 
U.S. Government has encouraged early and close liaison among the IEC 
and the security ministries. The IEC has already started coordinating 
with the MoI and MoD on security planning. At the end of February 2013, 
the IEC provided the MoI with a list of almost 7,000 polling centers to 
allow the MoI ample time to conduct security assessments for each site, 
take measures to open stations that had not been accessible previously, 
and provide adequate time for the delivery of election materials. The 
security ministries are scheduled to complete security assessments 
before candidate registration begins in mid-September 2013. In March 
2013, the IEC, together with the security ministries, released a 
comprehensive operational plan a year ahead of the elections--something 
that we did not achieve in the run up to the 2009 and 2010 elections. 
The IEC operational plan is a comprehensive document detailing voter 
registration and voting procedures, training and fielding of observers, 
fraud mitigation, and public messaging, both to encourage participation 
and to explain procedures. While not a security plan, it does include 
some discussion of security considerations for the main components of 
the electoral process, the general concept of security operations, and 
processes that support the IEC Security Operations mission.
    Although election preparations are progressing, challenges remain. 
Afghan security institutions have yet to turn their full attention to 
security planning, having focused resources on the current fight and 
its challenges while also helping support voter registration and roll-
out of the e-tazkera, the biometrically linked electronic national 
identity card. The MoI began an e-tazkera pilot program in Kabul in 
mid-April, which will expand nationwide once voter registration begins; 
however, progress on the issuance of e-tazkeras has been slow. Public 
demand for the 
e-tazkera has increased as public awareness of the program has become 
more widespread. This places the MoI under considerable pressure to 
meet demand and will continue to present a challenge for the MoI, as 
they work to meet their very aggressive goal of enrolling 14 million 
Afghans by March 31, 2014. Despite earlier and closer coordination 
between the IEC and security ministries, communication between these 
institutions has been poor and still needs improvement. ISAF will 
continue to support MoI and MoD to prepare effective security plans and 
facilitate closer coordination between the two ministries and with the 
IEC. While security planning for the 2014 election is ahead of the 2009 
election, levels of violence are much higher in 2013 than in 2008. With 
the anticipated drawdown of U.S. and coalition forces by the end of 
2014, the stakes are much higher, and the political complexity of an 
election without an incumbent makes the risk greater than in the past.
    The 2014 Presidential election presents an opportunity for the 
Afghan Government to demonstrate its ability to conduct a peaceful 
democratic transition of political power; however, the election will 
also challenge the government to conduct an election that is viewed by 
the Afghan people and international community to be legitimate. The 
United States continues to urge consultation in these efforts among 
President Karzai, Parliament, the IEC, the political opposition, and 
civil society organizations to help ensure that decisions ultimately 
have buy-in from the Afghan population. Secure, transparent, and 
orderly elections in 2014 will be important to a peaceful transfer of 
power and, ultimately, the recognition by the Afghan people that the 
government is both legitimate and representative of Afghanistan.

    Senator Casey. Thanks very much, Mr. Sedney.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    And it is good to see both of you again, and thank you for 
your years of service as Members of Congress parachute in and 
out and tell you what you ought to be doing. I appreciate your 
patience and your forbearance on those occasions.
    It seems to me that there are several seminal events or 
situations that will determine success or failure, and let me 
just run through a couple of them real quick.
    One we cannot do a lot about and that is the Pakistan safe 
haven.
    Another, of course, is corruption in the Karzai government.
    Another is the number of troops that we will leave behind 
in a residual force in 2014.
    And, of course, the other is the funding for the Afghan 
security forces in order to maintain a force of 352,000. Now, 
it is my understanding that that is around $5 billion. And at 
Chicago, there was only $4.1 billion, and of course, these 
conferences are pretty well known for pledges that never really 
become reality.
    So I think, Mr. Chairman, that we do have a vote coming up. 
So maybe I could just ask them to respond to those so that you 
would have an opportunity. Maybe we could have some responses, 
your views on each of those. Those are not the only issues that 
face us, but I think that you would agree that that summarizes 
at least most of the major challenges.
    Mr. Sedney. Thank you, Senator. Everything you have laid 
out is certainly a challenge.
    Taking them in the same order, the Pakistan safe havens 
exist now. My comments about the success that the Afghan 
security forces are having now in holding their own includes 
operations that build upon the layered security along the 
border, that layer of security design that ISAF put in place 
with the Afghans now moving into the lead on that as well. But 
it is, nevertheless, a challenge. The insurgents get to back 
into Pakistan for resting, refitting, planning, rearming, all 
that. And it will be a challenge for the Afghan security forces 
to maintain security this year and during the elections with 
those safe havens there. They will learn a lot this year about 
how well they are able to do that and how well they are able to 
do that with less support from us as our forces continue and 
ISAF forces continue to reduce.
    In terms of corruption, I will leave that for my colleague, 
Ambassador Pearce. But there is certainly corruption in the 
security forces as well. I am not saying it is civilian.
    In terms of the number of United States forces, as you 
know, Senator, President Obama announced at the State of the 
Union that we will withdraw half of the forces we have now, so 
we will have 34,000 forces in Afghanistan in February of next 
year. Those forces will be there for the election period.
    Senator McCain. The key, I think, is the number following 
that, the permanent support force that is going to be there for 
the foreseeable future. There are estimates ranging from 20,000 
down to 13,000 down to 5,000. And I would argue that the sooner 
the Afghans know that, the more predictable they believe their 
future will be. Would you agree?
    Mr. Sedney. I agree that the continuing presence and 
commitment of the United States and others is really important. 
In terms of the final decision, as you know, that has not been 
made yet.
    Senator McCain. Do you have any idea when that decision 
might be made?
    Mr. Sedney. I am afraid I do not, Mr. Senator, but I will 
take your comments and your question back with me.
    Senator McCain. Thank you.
    Mr. Sedney. On the funding for the Afghan security forces, 
you are correct about the increased amount. Part of that comes 
because we are looking to provide additional enablers for the 
Afghan security forces beyond those that we thought we would 
need last year, trying to get such things as helicopters, 
artillery in place more quickly and to give the Afghans the 
ability to operate independently. Some of that additional 
amount was reflected in the OCO budget that was submitted to 
Congress for the coming fiscal year. That will entail some 
additional cost beyond the original estimates and we are still 
working on those numbers.
    Senator McCain. Did you want to say anything about 
corruption in the Karzai government?
    Ambassador Pearce. Well, sir, as you know--you have been 
yourself to Afghanistan so many times--it is a fundamental 
challenge. It has been for some time and it will be for a 
while.
    The government has committed to reducing corruption and 
increasing transparency and accountability and building 
judicial capacity and the rule of law. But, of course, there is 
a lot to do. They pledged to fight it at Bonn. They reaffirmed 
it last July in Tokyo. Of course, this is one of the 
fundamental things that the international community is going to 
be looking at very closely going forward.
    We have, as you noted, made substantial undertakings to 
work to secure funds going forward after 2014, both in Chicago 
at the NATO conference for the Afghan National Security Forces 
and in Tokyo. But it is clear that your very question in this 
setting shows what the issue is, that if we are going to be 
able to follow through on the commitments that we have made and 
which are quite sincere, then this is going to be an important 
factor in that, and the international community is going to be 
watching that very closely.
    I would just say in that regard, though, that it really 
does tie into the political framework, political transition, 
and the whole question of the elections and the reason that 
Senator Casey called this meeting today.
    And I would just note, sir, I have been in SRAP for the 
last year or so, and I was in Kabul for a year before that. And 
I think that there is a lot of attention, first, on the 
drawdown of troops. There is also a civilian drawdown, as you 
know, that is going to be going on at the same time. I would 
argue that one of the important things that has changed in the 
last couple of years, which does not get a lot of attention, is 
the really patient, block-by-block political and diplomatic 
work that has been done to put in place an architecture of 
support for Afghanistan that was not there before. Two years 
ago, the kind of support that we have now just was not there.
    And now we have had conferences in Bonn and Berlin and 
Istanbul very importantly for the region to be invested in the 
future of Afghanistan in a much greater degree than they were 
before and Chicago and Tokyo, of course. And I think what that 
has done is--and, of course, more than a dozen bilateral 
security agreements as well, not only ours, but India and the 
Europeans and Japan and Australia, the Scandinavian countries. 
This means that there is an architecture of support for 
Afghanistan that is a new factor, and I think it has changed 
the equation in the region. It has affected the calculations of 
the regional countries, and I think it has affected the 
calculations of the Afghans.
    And I believe that this has opened up additional political 
space. And that is the backdrop that these elections are going 
to take place in. That is the backdrop that the possibilities 
for reconciliation and the peace process will take place in, 
and that is the backdrop for the larger political transition in 
Afghanistan.
    So, yes, I think, corruption is a problem. Our decisions on 
the post-2014 presence are going to be extraordinarily 
important. They are going to have not only a practical military 
impact, but a very important psychological impact. But there 
are really opportunities too, and I think that some of these 
things are in the political area.
    Thank you.
    Senator McCain. I thank you.
    I thank you, Mr. Chairman.
    Senator Casey. Thank you, Senator McCain.
    Ambassador Pearce, I wanted to get back to something you 
mentioned and I mentioned as well, the Supreme Court and the 
concern that has been raised here and in other places about 
members of the Afghan Supreme Court remaining in their posts 
beyond the expiration of their terms. How do we engage in that 
and how do we positively impact that issue?
    Ambassador Pearce. Well, Senator, I mean, this hearing, I 
guess, is one of those opportunities.
    We engage intensively on not only this issue but all of the 
issues related to the electoral process, on the legislation, 
the commissioners. The whole complex is something which we are 
intensively engaged in and have been for some time.
    The Embassy, Secretary Kerry--I was with him on his last 
trip, and I can assure you that he raised all these things very 
directly and personally in his own meetings. I think you know 
how he feels about this. His own experience in 2009, of 
course--he is one of the most knowledgeable people there is 
about this whole issue. I remember that before he even was 
confirmed in his initial prebriefings, but when he came to 
visit us in Kabul over breakfast at the Ambassador's house and 
during the briefings we had, he always raised this issue. And 
when he came to the State Department, it was the first thing he 
mentioned with us.
    So I think that this is really front and center, not only 
the Supreme Court justices, but the quality of the process in 
general because it is fundamental to what we are trying to 
achieve in Afghanistan.
    This is an election which the Afghans are running. We are 
going to support, as best we can, and I think, as you said, 
that is the proper role. We are not going to be picking a 
horse, not picking a candidate. Nevertheless, we are also not 
indifferent to the outcome. And all of these things are 
important to getting the process right and doing everything we 
can together with the United Nations and the other donors to 
try and do that. So we follow up almost every day, I would say, 
high and low, sir.
    Senator Casey. Mr. Ambassador, because of our votes and 
because we started so late, I think I am going to let both you 
and Mr. Sedney go, and we are going to transition to the second 
panel.
    But before I run out the door to vote, Mr. Sedney, the 
report that is due pursuant to my amendment in the Fiscal Year 
2013 National Defense Authorization Act, the report that 
relates to women in Afghanistan--the report is due in June, and 
I hope--and tell me if I am wrong--that we can expect that 
report delivered on time.
    Mr. Sedney. Mr. Senator, our intention is to have it in on 
time. However, I will note that our report-writing capacity has 
been taxed by the additional requirements for the 1230 report 
which is increasing in size by 40 percent. So we are at a time 
of reduced resources. That increase in the 1230 report 
requirements may impact the delivery of the report you 
mentioned on women in Afghanistan, but we are already working 
on that report and I still hope to have it in on time.
    Senator Casey. Well, I appreciate those efforts and 
anything to make sure that happens because--I guess it was 
Ambassador. You noted about women's participation in the 
election and obviously well beyond the election is critically 
important not only for the obvious reasons but also because how 
women fair will largely impact the security environment.
    Both of you have been very patient. We will submit more 
questions in writing, and maybe as I run to vote, we can 
transition to our next panel. We will take a brief recess.
    Thank you.

    [Recess.]

    Senator Casey. OK, we are back. Thanks very much, everyone, 
for your patience. We actually had two votes, so that explains 
part of the time lag.
    But I appreciate the opportunity that each of you presents 
to us to be able to discuss these important issues that relate 
to the elections in Afghanistan. I know we do not have 
unlimited time, but I did want to hear from each of you, if you 
can summarize your testimony.
    I should also say for the record that, obviously, on our 
first panel both Mr. Sedney and the Ambassador--their full 
statements will be made a part of the record. The same holds 
for each of you.
    You know the drill, but to the extent that we can try to 
keep your opening statements to 5 minutes, and then we will do 
a round of questioning. But, Dr Wilder, if you want to start.

   STATEMENT OF DR. ANDREW WILDER, DIRECTOR, AFGHANISTAN AND 
   PAKISTAN PROGRAMS, U.S. INSTITUTE OF PEACE, WASHINGTON, DC

    Dr. Wilder. Thank you. Chairman Casey, thank you for this 
opportunity to present my views on the upcoming elections. I 
would like to note that the views I express today are my own 
and not necessarily those of the U.S. Institute of Peace, which 
does not take policy positions.
    For the past 2 years, the top priority of USIP's 
Afghanistan program, both in Washington and through our office 
in Kabul, has been to raise greater awareness of the importance 
of the 2014 political transition. We have prioritized this 
because we strongly believe that a credible election that 
produces a legitimate successor to President Karzai is the best 
way to promote peace and protect the tremendous achievements of 
the past decade. I also believe that this is the best way to 
promote the United States objective of a relatively stable 
Afghanistan that does not slide back into civil war, does not 
once again become a haven for transnational terrorist groups, 
and does not destabilize its neighbors, especially Pakistan.
    In spite of the problems that Afghanistan continues to 
face, its current constitution has held together a disparate 
group of political elites. Without legitimate elections next 
year, the fabric of the constitution will be torn and, with it, 
the existing consensus on how to allocate power and determine 
legitimacy. This would be tragic for Afghans, damaging to 
United States interests in the region, and would reinvigorate 
the Taliban insurgency.
    I was just in Kabul a few weeks ago, and one of the senior 
Afghan political figures I spoke with there said to me if 
elections are not held, it will be a big propaganda victory for 
the Taliban. And I think that is the case.
    Whether we like it or not, the United States plays a major 
role in the electoral calculations of Afghan political actors. 
However, there is currently a politically damaging mismatch of 
perceptions between the signals we think we are sending and the 
signals that Afghans say they are receiving. There is no 
question that the United States has been clear in its official 
statements and bilateral discussions with Afghans about the 
United States desire for credible elections in 2014.
    Unfortunately, many Afghans continue to question our 
commitment to their democracy. They note our actions, as well 
as our statements. The recent reports in the media, for 
example, that some parts of the U.S. Government continue to 
provide President Karzai with unofficial cash payments is 
interpreted as a sign that whatever the United States says 
about elections, it, in fact, remains wedded to supporting the 
President and his patronage networks. Karzai's very public 
acknowledgment that he received these funds and the assurance 
he says he was given that he will continue to receive them 
clearly show that he recognized the political value within 
Afghanistan of highlighting this direct United States support.
    In 2009, President Karzai accused the United States of 
undue interference in the electoral process, including favoring 
certain candidates over others and actively undermining his 
reelection. Since 2009, the international community has 
responded by adopting an approach that perhaps has gone too far 
in the other direction. Afghan politicians regularly complain 
that the international community's reluctance to push the 
Afghan Government on election-related issues results from a 
tendency to confuse President Karzai's sovereignty with 
Afghanistan's sovereignty. As one Afghan put it to me, the 
United States is interfering in the process as much by staying 
out of it as it would by being involved. The question is 
whether its interference is positive or negative for the future 
of Afghanistan.
    While Afghan sovereignty must be taken seriously, it is not 
a violation of that sovereignty for the United States and its 
international partners to highlight publicly, as well as 
privately, the need for appropriate electoral laws, effective 
and independent electoral institutions, and robust fraud 
mitigation measures.
    To summarize my main recommendations, the first one is that 
the top priority of United States policy in Afghanistan for the 
next year should be to support credible elections on April 5 
next year, which will provide a new leadership team for 
Afghanistan and preserve the integrity and continuity of the 
Afghan Constitution.
    The second recommendation is that the United States should 
appoint an official of ambassadorial rank in the Embassy in 
Kabul specifically tasked to focus on elections, echoing the 
recommendation you made in your opening remarks, Mr. Chairman. 
In addition to helping coordinate the various lines of the 
United States elections-related support, this would also help 
to send a clear signal to Afghans that the elections are, 
indeed, a top policy priority of the U.S. Government.
    The third recommendation is that in actively supporting the 
electoral process, the United States must avoid the impression 
that it supports any specific candidate.
    And No. 4, the United States should actively support the 
voter education efforts of civil society organizations and the 
media. Civic education and robust support for an independent 
media will play a critically important role in mobilizing and 
educating voters, especially women voters. It will also help 
generate demand for the elections and promote transparency and 
accountability.
    I would like to conclude with a question that an Afghan 
friend posed to me recently. He said, ``We have tried every 
form of government in the past 100 years in Afghanistan: 
monarchy, a nonelected Presidential republic, anarchy, 
theocracy, and now democracy. He said if democracy cannot work, 
then what is left?'' That I believe is how many Afghans see the 
stakes of next year's political transition and why they place 
so much importance on the elections. And that is why we must as 
well.
    Thank you, Mr. Chairman, and I am happy to answer your 
questions.
    [The prepared statement of Dr. Wilder follows:]

                Prepared Statement of Dr. Andrew Wilder

    Chairman Casey, Ranking Member Risch, and members of the 
subcommittee, it is an honor to appear before you today to present my 
views on the upcoming elections in Afghanistan. Thank you for this 
opportunity. The views I express today are my own and not necessarily 
those of the U.S. Institute of Peace (USIP), which does not take policy 
positions.
                              introduction
    I currently direct USIP's programs on Afghanistan and Pakistan. My 
views are informed by my work at USIP, and by a longstanding 
involvement in both Afghanistan and Pakistan. I began to work in the 
region in 1986 with U.S. humanitarian and development NGOs assisting 
Afghans, and spent all but 3 of the following 20 years in Pakistan and 
Afghanistan. I saw first-hand the tragic and devastating consequences 
for Afghans--and eventually the U.S. as well--when peace settlements 
failed, and when the international community lost interest in 
Afghanistan. While much of the press these days is filled with negative 
stories from Afghanistan, I can also attest to the remarkable progress 
made in Afghanistan during the past decade, which stands in stark 
contrast to the dark days of civil war and Taliban oppression of the 
1990s. Much of this progress was made possible by generous U.S. 
financial support and the brave efforts of our military and civilian 
personnel who have served in Afghanistan.
    USIP has been working in Afghanistan since 2002, focusing on 
identifying innovative ways to prevent and mitigate conflict through 
nonviolent means. Our team, based in Kabul and supported by colleagues 
in our headquarters in Washington, DC, implements programs designed to 
improve understanding of conflict dynamics and peaceful dispute 
resolution mechanisms, supports and strengthens the important work of 
civil society organizations to prevent and resolve conflict and promote 
the rule of law, and advances peace education in schools and 
communities. We work closely with colleagues at the State Department, 
the U.S. Agency for International Development (USAID), and the 
International Security Assistance Force (ISAF) in Kabul, and through 
our research and programs help to inform their work and 
the work of other organizations and policymakers. USIP also frequently 
convenes 
and facilitates dialogue with key actors from across the Afghan 
political spectrum, as well as with U.S. civilian and military 
officials, including visiting congressional 
delegations.
    For the past 2 years, the top priority of USIP's Afghanistan 
program has been to conduct research, facilitate discussions, and raise 
greater awareness through publications, events, and briefings of the 
importance of, and need to, support the 2014 political transition in 
Afghanistan. Throughout 2011, USIP and the Center for American Progress 
supported a high-level working group cochaired by Steve Hadley and John 
Podesta, which highlighted the need for a clearer U.S. political 
strategy in Afghanistan, and in particular stressed the importance of 
the 2014 political transition. Since 2011, USIP has also been hosting a 
monthly interagency Afghan Elections Working Group meeting in 
Washington, DC. In Afghanistan, USIP is currently designing a program 
to help develop the capacity of women to participate in the elections, 
as well as a broader effort to inform and support election-related 
civic education efforts.
A Credible Election is Essential for Peace and Stability
    Today's hearing is critically important and timely. I strongly 
believe that the single biggest opportunity to protect the tremendous 
achievements of the past decade and to promote the U.S. objective of a 
relatively stable Afghanistan that does not slide back into civil war, 
once again becoming a haven for transnational terrorist groups and 
destabilizing its neighbors, especially Pakistan, is a credible 
election in 2014 that produces a legitimate successor to President 
Karzai.
    Until recently this critically important political transition in 
Afghanistan has been overshadowed by the security transition--the 
ongoing process by which international forces are drawn down and Afghan 
forces take full responsibility for their own security. However, many 
Afghans do not believe it will be possible to have a successful 
security transition without a successful political transition that 
ensures there is a legitimate civilian government to control and 
maintain the cohesiveness of the Afghan National Security Forces. 
Furthermore, there is a clear recognition among Afghan political elites 
that cancellation of the election, or a deeply flawed election that 
does not produce a legitimate outcome, will have a very negative impact 
on the willingness of major Western donors to continue generous levels 
of financial support to sustain the Afghan economy and the Afghan 
National Security Forces. They know all too well that it was not the 
withdrawal of Soviet troops that led to the downfall of the Najibullah 
regime in 1992, and the resulting descent into a bloody civil war, but 
the end to the Soviet subsidies following the collapse of the Soviet 
Union.
    The stakes in 2014 are not simply the election of a new Afghan 
leadership, but the endurance of Afghanistan's constitutional political 
order. In spite of the problems that Afghanistan continues to face, its 
current constitution, ratified in January of 2004, has succeeded in 
holding together a disparate group of political elites. Many of these 
elites still have the means to contest for power with arms, but they 
have accepted that constitutional process and electoral contests are 
better ways of resolving leadership conflicts. Without elections next 
year, or with flawed elections, the fabric of the constitution will be 
torn, and with it the existing consensus on how to allocate power and 
determine legitimacy. If this happens, it is likely that some of 
Afghanistan's major powerbrokers will resort to the only other set of 
rules for power available to them--those of force and violence. This 
would not only have tragic consequences for Afghans, but also seriously 
damage U.S. interests in the region and reinvigorate the Taliban 
insurgency. As one senior Afghan political figure told me last month in 
Kabul, ``If elections are not held it will be a big propaganda victory 
for the Taliban.''
Foundations for a Democratic Future in Afghanistan
    While the last round of Afghan elections in 2009/2010 were 
problematic for many reasons, a focus on the flaws of past elections 
would overlook some important achievements of Afghan democracy. 
Elections have worked in Afghanistan, at least in terms of their most 
basic function. They have legitimized executive power, elected 
representative parliaments and provincial councils, and have begun to 
accustom Afghan citizens to the rites of democracy. However imperfect, 
Afghanistan has achieved a government that exercises civilian control 
over its security forces, negotiates trade deals with its neighbors, 
seeks loans from international financial institutions such as the World 
Bank and the IMF, represents Afghanistan at the United Nations, and 
maintains important bilateral relationships on a sovereign footing. All 
of this is possible because the government is recognized by the 
international community because it has been established on the basis of 
the mechanisms prescribed in its constitution.
    There is, of course, much room for improvement, but the two post-
2001 electoral cycles have laid a foundation from which Afghans can 
continue to grow into their democracy. Elections are also accepted by 
most Afghans as a means of determining political power. A recent survey 
conducted by Democracy International and funded by USAID reveals that 
76 percent of those surveyed intend to vote in the next Presidential 
election. In another study published by USIP, Afghans surveyed say they 
recognize the flaws of their electoral system, but also value it. They 
expressed pride in the fact that their country has joined the family of 
democratic nations. Furthermore, despite past flaws, and undoubtedly 
future ones as well, they see no better alternative.
    At the level of elites, the prospect of next year's election has 
led to significant political mobilization. Electoral politics is 
happening in Afghanistan--the democratic politics of coalition-
building, platform-drafting, and campaign strategizing. The fact that 
President Karzai is constitutionally barred from running for a third 
term is the most salient feature of the 2014 election. While making 
predictions about Afghanistan is always a risky business, one possible 
scenario is the emergence of two strong electoral coalitions, one 
supported by President Karzai, and entrusted by him to protect and 
carry on his political legacy, and the other formed by an opposition 
team, made up largely of former (and in some cases current) senior 
office-holders in Karzai's government, though both coalitions will need 
the support of more traditional sources of power. A strategy being 
pursued by some political actors is to try to generate a consensus 
prior to the elections among key political elites around a post-
election national agenda and power-sharing arrangement. If successful, 
this elite consensus-building effort would be followed by a national 
campaign to endorse this effort, with the hope that the 2014 elections 
would ultimately serve more as a referendum on this national agenda and 
power-sharing agreement rather than a highly contentious and divisive 
electoral contest.
United States Support for Elections
    Whether we like it or not, the position adopted by the United 
States plays a major role in the electoral calculations of Afghan 
political actors. However, there is a politically damaging mismatch of 
perceptions between the signals we think we are sending and the signals 
that Afghans say they are receiving from us. There is no question that 
the United States has been clear in its official statements, program 
documents, and bilateral discussions with Afghans about the U.S. desire 
for a credible election process in 2014 that yields a legitimate 
result. For example, the Tokyo Mutual Accountability Framework 
specifies a credible election as a condition for long-term assistance 
to Afghanistan beyond 2014. The elections were prominently mentioned 
during the press conference that Presidents Obama and Karzai held in 
Washington in January of this year, as well as during Secretary Kerry's 
visit to Kabul in March. The U.S. Embassy in Kabul is closely following 
the elections and USAID and its partners are actively supporting the 
electoral preparations. On visits to Kabul in February and April of 
this year, I was struck by the number of Afghan political figures who 
spoke of the significance for Afghans of then-Senator Kerry's remarks 
about the importance of the elections, made in his confirmation hearing 
before this committee.
    We might therefore conclude that the U.S. Government has said 
enough and that our position is clear. But many Afghans remain hesitant 
and continue to question our commitment to their democracy. They note 
our actions as well as our statements. The recent reports in the media, 
for example, that some parts of the U.S. Government continue to provide 
President Karzai with unofficial cash payments is interpreted as a sign 
that, whatever the U.S. says about elections, it in fact remains wedded 
to supporting Karzai and his patronage networks. His very public 
acknowledgment that he received these funds, and the assurances he says 
he was given that he will continue to receive them, clearly show that 
he recognizes the political value within Afghanistan of highlighting 
this support. The fact that the U.S. has not been more vocal on issues 
such as Karzai's recent veto of an electoral law that would ensure a 
more independent election commission is also seen as a sign by some 
Afghans that credible elections in 2014 are not a top U.S. policy 
priority. The U.S. refusal, along with other donors, to finance a plan 
last year to improve the voter register--leaving aside the feasibility 
of that plan--is similarly interpreted as the U.S. Government's 
unwillingness to invest in as credible an electoral process as 
possible.
    In 2009, President Karzai accused the U.S. of undue interference in 
the electoral process, including favoring certain candidates over 
others and actively undermining his reelection. Whatever the merits of 
this accusation, Karzai considers it to be fact, and that must be 
accepted by policymakers as a reality of the Afghan political scene. 
Since 2009, the international community has reacted by adopting an 
approach that perhaps goes too far in the other direction. Rightly or 
wrongly, many Afghan opposition politicians regularly complain to me 
that the U.S. has been conspicuously absent from involvement in the 
elections on the grounds of respecting Afghan sovereignty--but that too 
often there is a tendency to confuse President Karzai's ``sovereignty'' 
with Afghanistan's sovereignty. As one Afghan put it to me, ``The 
United States is interfering in the process as much by staying out of 
it as it would by being involved. The question is whether its 
interference is positive or negative for the future of Afghanistan.''
    There is no question that Afghan sovereignty must be taken 
seriously. Active U.S. support for a credible election bolsters Afghan 
sovereignty and reinforces the primacy of the constitution. It is a 
critical component of the future relationship between our two 
countries. This discussion cannot be held only with President Karzai. 
It must be held more broadly with the Afghan political community and 
even the Afghan public, because they will be the main partners and 
hopefully beneficiaries in that future relationship. It is not a 
violation of Afghan sovereignty for the U.S. Government and its 
international partners to highlight--publicly as well as privately--the 
need for appropriate electoral laws and effective and independent 
electoral institutions, and that future levels of external support will 
undoubtedly be affected by the extent to which the elections are 
perceived to be credible.
    The veto a few weeks ago by President Karzai of the law governing 
electoral institutions is cause for significant concern. Karzai's main 
criticism was that the law restricted his so-far unfettered ability to 
pick the members of the Independent Electoral Commission. His veto of 
the law will, in the least damaging scenario, cost precious time in the 
preparation of the elections. At worst, it will result in a situation 
where Parliament adjourns in July without an agreed-upon law, and 
President Karzai will either decree a new law, or the elections will 
take place according to the old law. Irrespective of the merits of the 
various legislative drafts, and of the arguments behind Karzai's veto, 
the electoral optics are of great concern. For an opposition already 
skittish about contesting an election that they fear will be rigged, 
the fact that the President might be the sole decider of the 
legislation under which the election takes place, and the sole 
appointer of the figures who will oversee the contest, is dissuasive to 
say the least.
    Despite the risks of a destabilizing election, the greatest fear of 
many Afghans is an election that doesn't take place. Various factors 
heighten that concern-- 
a delayed or uncertain legislative framework, an opposition that is 
ill-prepared to contest an election because it doubts the election's 
fairness, the security situation which could further deteriorate if the 
Taliban decide to actively target the elections, the impact of the 
drawdown of international military forces on their capacity to provide 
security and logistical support, questions about how the electoral 
budget is administered, logistical challenges of carrying out a spring 
election--all lead to a situation where many may conclude that an 
election cannot be held. Where would that leave Afghanistan? It is 
anyone's guess, but without question it would create a destabilizing 
constitutional crisis, which I have argued it is imperative to avoid.
    It must be the unwavering policy of the U.S. to support an election 
in April 2014 that will provide a new leadership team for Afghanistan 
and, most importantly, preserve the integrity and continuity of the 
Afghan Constitution. This policy objective should be prioritized above 
all others, including that of a negotiated solution with the Taliban. 
Working with Afghans to ensure that a credible election is held should 
also take precedence over certain bilateral issues, such as the 
negotiation of the Bilateral Security Agreement that determines the 
status of U.S. forces in Afghanistan beyond 2014, should these two 
issues be placed in conflict.
    The U.S. must make very clear to the Afghan Government, political 
parties and candidates, and the Afghan public that a credible election 
and a peaceful political transition to a legitimate successor to 
President Karzai is currently the top policy priority of the U.S. in 
Afghanistan. This need not be communicated through threats or 
ultimatums. Megaphone diplomacy in Afghanistan often backfires. U.S. 
officials must simply state the obvious--that the U.S. and its 
international partners would find it difficult to sustain a robust and 
long-term economic and security relationship with an Afghanistan that 
did not have a legitimate democratically elected government. On the 
other hand, the U.S. would welcome deepening its relationship with a 
new, elected government that sees itself as a strategic partner.
Recommendations
    In summary, my recommendations are:
    1. The top priority of U.S. policy in Afghanistan should be to 
support credible elections on April 5, 2014, in accordance with the 
Afghan Constitution. We have many competing interests in Afghanistan 
and many short-term crises that come up in our relationship with the 
Afghan Government. These should not be allowed to overshadow the fact 
that our long-term relationship depends on a legitimate post-2014 
government.
    2. The U.S. should appoint an official of ambassadorial rank in the 
Embassy in Kabul specifically tasked with focusing on elections, 
offering both technical and political guidance. Ambassador Tim Carney 
played this role in 2009 and it was seen as extremely valuable by 
Afghans and the international community in coordinating the various 
lines of support provided by the U.S. Government. Because the elections 
are taking place in the spring when weather conditions make parts of 
the country difficult to access, the 2014 elections will be more 
complicated logistically than previous elections, and ensuring 
efficient lines of support will be more important.
    3. In providing support to the electoral process, both through 
technical means and through our statements to Afghan leaders, the U.S. 
must avoid the impression that it supports any specific candidate. It 
is extremely important for the legitimacy of the process and the 
government that emerges from it, that the electoral decision is an 
Afghan one.
    4. The U.S. should actively support civic education efforts of 
civil society organizations and the media. Civic education and robust 
support for independent media will play an important role in mobilizing 
and educating voters, especially women voters, generating demand for 
the elections, and promoting greater transparency and accountability.
    5. Finally, we should work with Afghanistan's regional partners to 
improve the environment in which the elections take place. The election 
of a new government in Pakistan, for example, creates an opportunity to 
gain greater cooperation in promoting stability in Afghanistan in the 
runup to the election. Neighboring countries will seek to influence the 
election, but can be convinced that they also all stand to lose if a 
failed process leads to renewed conflict.
                               conclusion
    The true value of the efforts of many American service men and 
women, diplomats, and civilians over the past 12 years will be put to 
the test a year from now. As I mentioned at the beginning of my 
remarks, the stakes are high for all Afghans, but they are also high 
for us. An Afghan friend recently told me, ``We have tried every form 
of government in the past 100 years: monarchy, anarchy, theocracy, a 
nonelected Presidential republic, and now democracy. If democracy 
cannot work, then what is left?'' That, I believe, is how many Afghans 
see the stakes of next year's election, and why they place so much 
importance on them--and why we cannot let them down.
    Thank you, Mr. Chairman, and I am happy to take questions.

    Senator Casey. Thank you very much.
    Ms. Chayes.

    STATEMENT OF SARAH CHAYES, SENIOR ASSOCIATE, SOUTH ASIA 
     PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, 
                         WASHINGTON, DC

    Ms. Chayes. Thank you very much, Mr. Chairman. I think all 
of us--I can probably speak for all of us in just expressing 
appreciation for your initiative with this because I can say, 
at least, if the same foresight had been shown in 2009, we 
might be in a different place today.
    I would like to just give you a couple of words to give you 
a sense of my own perspective. I was asked to discuss a little 
bit how things went down in 2009, you know, just to provide a 
context for the types of actions that you might be considering 
proposing at the moment.
    At the time, I was the special advisor to the ISAF command. 
I had lived in Afghanistan for 7 years, almost all of that time 
in a regular house in Kandahar, and I speak Pashtu and the 
people I worked with were ordinary Afghans, men and women, from 
the Kandahar area. And so that experience gave me an intimate 
insight into how the massive fraud of 2009 was brought about. 
And what I am going to describe comes from an unclassified 
analysis that I provided to the ISAF command, and that was 
everyone, General McChyrstal, General Rodriguez at the time, 
the intel and ops bosses, et cetera.
    So one of the things we heard today repeated quite often 
was the issue of Afghanizing the election. I think we need, as 
Dr. Wilder suggested, to think carefully about what we mean by 
that. What I found was that the fraud operation was incredibly 
sophisticated, and it began with what I could call a PSYOPS 
campaign, a psychological operations campaign, against us by 
Karzai and the key ministers, and by that I mean, you know, the 
Minister of Defense, the Minister of the Interior, the key 
IDLG, the independent--what was it--directorate of local 
governance. Sorry. And that was a main point they were all 
trying to impress on us, is we need to Afghanize this election. 
And I have to say the international community jumped on board 
with that concept, in particular, the United Nations which saw 
this as a mark of success, the degree to which we backed out 
of--we, the international community--backed out of involvement 
in, again, the process. It is not about picking winners. It is 
about oversight over the process. ISAF, I have to say, was 
delighted to be relegated to third rank security. So not even 
eyes on to polling stations.
    The effect was--so these were concepts that we really were 
sensitive to. We did not want to impinge on Afghan sovereignty. 
But that was a very effective way for the Karzai machine, more 
or less, to protect itself from observation. In fact, the 
Afghan Government was not neutral. It had been set up to pursue 
the objective of reelecting President Karzai, and that is how 
every Afghan citizen that I interacted with--and that was a 
lot--saw it. And they saw at the time the international 
community as the sole potential guarantors of the independence 
of the process.
    And again, I can remember the night before the election 
getting a call from a town on the border with Pakistan. They 
have started stuffing the ballot boxes already. It is at so and 
so's house on such and such a street, and the implied plea 
there was send somebody. Make it stop.
    And so there was a real disconnect between our sense of we 
need to respect Afghan sovereignty and the Afghan population's 
sense that we were respecting, as Dr. Wilder put it, Karzai's 
sovereignty and not their sovereignty.
    The other really important sort of psychological operations 
effort was to reduce the number of so-called black districts. 
So there were a lot of districts that were considered too 
insecure to open polling stations, and there was huge pressure 
put on the ISAF management to do whatever it could to reduce 
the number of black districts. And the notion that was handed 
to us was most of those were in Pashtun areas and Pashtuns want 
to vote for Karzai. So Karzai's voters will have been 
disenfranchised and therefore he could contest the election. 
That begs the question whether Pashtuns were, in fact, 
supportive of President Karzai.
    But two things happened. A couple of things happened. One 
was there were elections operations which ISAF did not want to 
conduct at the time. The doctrine at the time was you do not do 
an operation where you do not plan to stay. But the pressure 
from the Afghan Government was such that ISAF decided to do 
these clearing operations just for the purposes of the 
elections.
    The second thing that happened that was really interesting 
was deals with the Taliban. And these were briefed to us by the 
director of the national security directorate. And it was 
offering de facto recognition by entering into deals with them. 
It was sanctuary within their districts because in a number of 
these cases, ANSF agreed not to go in. You had money. And 
again, when we are talking about cash being handed over to 
Afghan Government officials, the question arises what is that 
cash being used for. Well, one of the purposes was paying off 
Taliban so that they would do what? Allow people to vote? No. 
What they had to do was allow voting materials to enter and 
then return from the district. Now, nobody voted in these 
districts. And I knew people in a lot of them, and I checked 
this.
    So why did Karzai not complain about his voters being 
disenfranchised? The objective was to obtain empty ballot boxes 
that were official ballot boxes, but empty, emanating from 
districts that were believed to be supportive of President 
Karzai, and that is where most of the ballot box stuffing 
happened.
    Then you had small, weak, underresourced oversight bodies. 
As you mentioned, we have got vetoes on the ECC and the IEC 
structures right now, not only vetoes. We have got Karzai there 
should be no ECC. The ECC, in fact, should be the Attorney 
General who--again I know from having followed anticorruption 
very, very closely, this is a guy who answers--Karzai picks up 
the phone to him and tells him what to do. Currently Karzai is 
standing up for being able to simply appoint all the members of 
the IEC. You could not imagine two bodies that are less 
independent than that. And so, again, I find the sort of wishes 
that were expressed by the earlier panelists a bit--there is a 
delta between what they were saying and what the likely 
realities are.
    Those were the conditions at a time when United States 
involvement in Afghanistan was the highest it ever has been in 
the past 13 years. So I just leave you to imagine what the 
level of involvement in the process that would be required from 
the United States in order to bring about something that was 
better than 2009.
    The upshot at that time was that the Afghan population felt 
unbelievably betrayed by us because they trusted us to bring 
about a credible process. Surprisingly to me, I am finding that 
my Afghan friends are very excited about the upcoming election. 
I just think we need to be very careful. While I agree that we 
need to message how important this event is, we also have to be 
careful that if we say we consider it to be important, then we 
need to think through what are the concrete steps that we are 
going to take.
    Senator Casey. We are going to have to move along.
    Ms. Chayes. I am already over. Yes. All right. I will stop 
there, and then if you have further questions.
    Senator Casey. We will have some time.
    Ms. Chayes. Thanks a lot.
    Senator Casey. Mr. Boot, thank you very much.

 STATEMENT OF MAX BOOT, JEANE J. KIRKPATRICK SENIOR FELLOW FOR 
   NATIONAL SECURITY STUDIES, COUNCIL OF FOREIGN RELATIONS, 
                         WASHINGTON, DC

    Mr. Boot. Thank you very much, Mr. Chairman, for inviting 
me, and congratulations to you and the rest of the committee on 
the passage of what I hope will be a very important resolution 
on Syria earlier in the day.
    I just returned a few weeks ago from my latest trip to 
Afghanistan where I have been traveling regularly since 2008 at 
the invitation of our military commanders to assess the 
situation. And on this trip, I saw much cause for confidence in 
Afghanistan's future, as well as considerable cause for 
concern.
    The factors that are positive really relate to the security 
situation in the southern part of the country which was, 
obviously, the focus of ISAF and Afghan operations in the last 
few years, and there is also pretty decent security, I would 
say, in the west and the north, as well as in Kabul in most of 
those areas not through anything that we have done but simply 
because there are not a lot of Pashtuns there and it is largely 
a Pashtun-based insurgency.
    There was considerable cause for concern for reasons that 
Senator McCain alluded to earlier having to do with the 
continued existence of Pakistan's role as an enabler of the 
insurgency, the lack of security, especially in eastern 
Afghanistan, including provinces like Logar and Wardak which 
are on the very doorstep of Kabul itself, and of course, the 
corruption which continues to cripple the ability of the 
government to gain the confidence of its own people.
    I think at this point, if I had to prognosticate about the 
outcome in Afghanistan, I think I would have to say it is very 
evenly balanced, maybe 55/45, maybe 51/49. I think the odds are 
still in favor of a positive outcome but only barely so. And I 
think a lot of it will depend on crucial factors, some of which 
are not entirely in our control.
    What I would like to talk about in the few minutes that I 
have here today is four recommendations for action, one of them 
focusing on the Presidential election in which I will differ 
from some of what you have heard earlier in the day. But before 
I get to the election, let me just mention three other things 
that I think need to happen for a successful outcome in 
Afghanistan.
    First, I think we need to continue providing at least $5 
billion a year indefinitely to support the Afghan security 
forces. If we cut down to the $4 billion goal, which was 
reached in the Chicago NATO summit, the result would be to lay 
off something like 120,000 soldiers and police at the very same 
time that we are pulling out most of the international security 
forces. That would be a disaster and would be an invitation to 
a Taliban victory. So I think we need to keep funding the ANSF 
at at least the level of $5 billion a year.
    We need to have a substantial advise-and-assist force there 
after 2014 at a minimum, I would say, the level of 13,600 
recommended by General Mattis, although I would be more 
comfortable with a level of 20,000 to 30,000.
    The third point that I would make is that we need to have a 
substantial campaign to counter the malign influence of 
Pakistan and the ISI modeled, I would argue, on the campaign we 
waged in Iraq in 2007-2008 to counter the influence of the 
Iranian Quds Force using all of our covert and overt 
capabilities to identify and target Quds Force operatives for 
capture or deportation or, at the very least, to publicize 
their activities and discredit what they were doing. I think we 
need a similar campaign in Afghanistan. We need to get over the 
illusion that Pakistan is our friend. They are not. They are 
actively supporting our enemies, and we need to recognize that 
and act accordingly.
    The fourth and final point that I would make is in regard 
to the elections, and here I differ a little bit, Mr. Chairman, 
from what you said earlier and from what some of the other 
witnesses, especially from the official administration 
witnesses, have said because I do believe that we have no 
choice but to pick winners and losers in this election. And 
effectively we will do that. As Dr. Wilder suggested, even if 
we take a hands-off attitude, we are effectively picking 
winners and losers because if we take a completely hands-off 
attitude at this point, we will be seen as endorsing Karzai and 
whoever his hand-picked candidate is to succeed him because 
that is the effect of these bags of cash that the CIA is 
delivering to him.
    I am not averse to the idea of the CIA exerting its 
influence through the use of money. That is something we have 
done in the past successfully, for example, in the early years 
of the cold war in places like Europe resisting the attempts of 
Communists to take power at the ballot box. I think that is a 
legitimate thing to do.
    My concern is, from what I understand--and of course, these 
are all highly classified programs that I am not read into, but 
certainly from the public reporting which has occurred, my 
sense is that what the CIA does is very short-term oriented, 
really designed to grease the way for their strike forces, 
their ability to continue counterterrorism operations and to 
enhance their limited influence. My sense is they are not 
really taking a long-term view of the country's future, and 
they are not really using their clout to enhance the long-term 
prosperity and stability and security of Afghanistan which I 
think should be our goal.
    We can take what I believe to be a self-defeating attitude 
of saying, well, all we care about is the sanctity of the 
electoral process, but the reality is, first off, I have very 
little confidence in the sanctity of the electoral process in 
Afghanistan especially when it is going to happen after we have 
withdrawn most of our troops from that country. The ANSF, I do 
not think, is going to be interested in guaranteeing the 
sanctity of the outcome. They are going to be working for 
whoever gives them the orders to do so. So the notion that 
there is going to be some pure electoral process I think is a 
myth.
    What is really going to happen and what is happening right 
now in Kabul is that the power brokers and outside players like 
the Iranians and Pakistanis or others are politicking to 
determine who will be the next leader of Afghanistan. I would 
hope that we would be actively casting our vote because we have 
a large vote in that. I think we mishandled the last process in 
2009 in part because we were so diffident about exerting our 
influence, and the result of that was we gave Karzai the 
impression that we were opposing him without doing anything 
effective to oppose him. So we got the worst of both worlds. We 
got the leader we did not want and he was annoyed at us for 
seeming to try to block his way.
    But in this instance, I think we need to make clear that we 
will not allow Karzai to abuse the process to entrench himself 
or his relatives in power. This ought to be a redline and we 
should make clear we will not give Afghanistan a dime if the 
election is not held and if Karzai somehow maneuvers to keep 
himself in power through extra-constitutional means.
    But beyond that, I think the succession race right now is 
wide open. There are many candidates. There is no clear front 
runner. I think we have a tremendous opportunity to try to 
figure out who is going to be the strongest and least corrupt 
candidate, the one who is most likely to unite Afghanistan and 
to move it forward. And I think that is a determination that we 
need to make. We should not announce it, obviously, but it is a 
determination that the Ambassador and station chief should be 
making and we should be doing what we can behind the scenes to 
aid whoever we think is going to be the strongest candidate or, 
put another way, the least bad candidate.
    I am sorry that does not comport with civics 101, but I 
think that is the reality of Afghanistan and we need to do that 
to protect the monumental investment in blood and treasure that 
we have made in that country and to prevent a criminal clique 
from stealing the election which, otherwise, I think is the 
likely outcome.
    [The prepared statement of Mr. Boot follows:]

                     Prepared Statement of Max Boot

    Mr. Chairman, Ranking Member, members of the subcommittee, I 
recently returned from a week in Afghanistan where I have been 
traveling regularly since 2008 to assess the state of the military 
campaign at the request of our military commanders. During this visit I 
went to Kabul as well as to Regional Command South (in Kandahar) and 
Regional Command Southwest (in Helmand). Along with a delegation from 
the Council on Foreign Relations, I met with Afghan and American 
soldiers and officials including Gen. Joe Dunford, Ambassador James 
Cunningham, and Defense Minister Bishmullah Muhammad. I thank you for 
inviting me to testify about the Afghan election in 2014 which is one 
of the most important factors determining Afghanistan's future. To 
place it into context I would like to comment not only on the election 
but on other factors of vital important to the outcome of our mission. 
What follows is closely based on an article I have written for the June 
5 issue of National Review summing up my most recent observations.
    The fundamental question we face is: Will America's decade-plus 
effort to bring stability and security to Afghanistan succeed? I saw 
cause for both pessimism and optimism as the country hurtles toward a 
turning point: the self-imposed December 2014 deadline for all NATO 
``combat'' troops (though not necessarily military advisers and Special 
Operations Forces) to leave the country.
    The most important reason to think that Afghanistan may turn out 
just fine is the progress being made by the Afghan National Security 
Forces, now 352,000 strong. The formal forces are augmented by 20,000 
Afghan Local Police, an auxiliary, village-based security force that is 
particularly feared by the Taliban, who are targeting its leaders for 
assassination. The Afghan security forces, and in particular the army, 
are now in the lead in 80 percent of all security operations, and in 
June they will take control of the entire country. Already the Afghans, 
not coalition troops, are bearing the brunt of the battle as evidenced 
by casualty figures which show that far more Afghan than coalition 
troops are being killed and wounded--a reversal of the prevailing trend 
of the past decade.
    I came away impressed from my meetings with Afghan army officers 
such as Maj. Gen. Sayeed Malook, commander of the 215th Corps in 
Helmand province, who present a professional appearance and convey an 
unyielding determination to fight the dushman (enemy) as they call the 
Taliban. If the Afghan Army continues to receive substantial Western 
support (a big if, to be sure), it is unlikely to lose a single battle 
to the ragtag fighters of the Taliban.
    Another cause for optimism is the result of American-led 
counterinsurgency operations in Helmand and Kandahar provinces, both of 
which I visited. U.S. troops, along with the international and Afghan 
partners, have routed the Taliban out of most of their southern 
sanctuaries. Enemy-initiated attacks in Kandahar province, I was told, 
fell 70 percent between 2011 and 2012. Kandahar City, the biggest urban 
area in the south, remains more secure than ever despite (or possibly 
because of) the assassination in 2011 of Ahmed Wali Karzai, a half-
brother of the President who was the de facto political boss of the 
region. Last summer the Taliban did not succeed in killing a single 
significant leader in Kandahar where security is now in the hands of 
the much-feared police chief, Gen. Abdul Razik.
    Yet more grounds for optimism can be found in the continuing 
security and growing economic development of western and northern 
Afghanistan, the region anchored by Herat in the west and by Mazar-e-
Sharif in the north. This has less to do with security operations by 
Afghans or their coalition allies than with simple demographics: The 
insurgency is largely confined to the Pashtun population and there are 
few Pashtuns in the north and west.
    Against these positive factors must be weighed three major 
negatives. First, and most important, Pakistan. The rift in U.S.-
Pakistan relations which opened after the 2011 Osama bin Laden raid has 
superficially healed--the Pakistanis have reopened NATO's supply line 
from the port of Karachi and resumed nominal cooperation on cross-
border security. But in reality the Pakistani Army, the real arbiter of 
its foreign policy, continues to support the Afghan Taliban even while 
fighting its counterpart, the Pakistani Taliban. Some factions of the 
Taliban might want to make peace, but the Pakistanis are not allowing 
it--they see the Taliban as their best bet to exert influence in post-
2014 Afghanistan. That's why peace talks, in which the Obama 
administration has invested so many hopes, are going nowhere fast. 
Given that cross-border sanctuaries are a big boon for any insurgency, 
Pakistan's role remains a spoiler even though security forces have made 
considerable progress in southern Afghanistan since 2009 in spite of 
Pakistan's support for the insurgency.
    A second, and related, negative is the continuing instability of 
eastern Afghanistan, the region located along the mountainous frontier 
with Pakistan. U.S. commanders have never had enough troops to do 
``clear and hold'' operations in most of this area. While Kabul itself 
remains secure and bustling (notwithstanding a recent suicide bomber 
attack on a convoy carrying U.S. military advisers and contractors), 
nearby provinces such as Ghazni, Logar, and Wardak are still infested 
with Taliban and Haqqani Network fighters. This insecurity, if left 
unaddressed, eventually could spill over and threaten the capital, 
which also happens to be the country's largest and most important city.
    A third and final negative--one too seldom mentioned by U.S. 
officials--is the continuing corruption of the Government of 
Afghanistan, which is dominated by an avaricious clique of warlords, 
drug barons, and powerbrokers in cahoots with President Hamid Karzai 
and his family. Afghanistan's leading clans have robbed the country 
blind over the past decade, stealing billions in foreign aid. Their 
rapaciousness has alienated substantial sectors of the population and 
provided an opening for the Taliban who, while themselves complicit in 
the drug trade, promise to deliver a harsh brand of Islamic justice.
    The positives and negatives of Afghanistan are closely balanced. 
The ultimate outcome may well be decided by three upcoming events.
    First, the Afghan security forces must show that security gains in 
the south are sustainable. This summer will be their first major test--
the first fighting season when coalition troops are not in the lead. If 
the Afghan Army and police can hold onto gains achieved largely by U.S. 
forces, that will be a major psychological boost for them--and a major 
blow to the Taliban. While U.S. commanders are understandably focused 
on this immediate challenge, an even bigger test will come in the 
summer of 2014 when there will be no more than 34,000 U.S. troops in 
Afghanistan. The ultimate test will come after 2014 when the U.S. 
presence will be even further diminished.
    Second, Afghans must emerge from their April 2014 Presidential 
election (assuming it occurs as planned) with a new leader who can 
unite diverse sectarian and political factions. A fractious outcome, 
with ballot-stuffing rampant and no candidate able to claim legitimacy, 
would be disastrous for the country's long-term prospects. So, too, 
would be any attempt by Hamid Karzai to hold onto power beyond the 
length of his current term, whether by postponing the election or 
simply by changing the constitution. On the other hand, a peaceful 
transfer of power, the first in Afghanistan's modern history, to a new 
President with widespread support would be a major blow to the Taliban 
and their al-Qaeda allies.
    Third, Afghans must know that the U.S. will provide the support 
necessary to keep their country together. Afghans understandably fear 
they will be abandoned after 2014, just as they were abandoned by the 
West after the departure of the Red Army in 1989. That is why property 
prices in Kabul are falling and capital flight is increasing. Only the 
announcement of a substantial post-2014 commitment by the U.S. can 
reassure Afghans that the Taliban will not come back.
    What can we do now, at this late date, to ensure that the negatives 
do not overwhelm the positives? Plenty. For a start, the U.S. and its 
allies must continue to provide at least $5 billion a year to the 
Afghan security forces, the minimum necessary to preserve a force of 
352,000, but more than the $4.1 billion pledged at the Chicago NATO 
summit last year. Unless the $4.1 billion figure is increased, the 
Afghan forces will have to lay off 120,000 soldiers and police at the 
very time when coalition forces are withdrawing. That would be a 
disastrous combination.
    The Obama administration should also announce that it will keep at 
least 13,600 U.S. troops in Afghanistan after 2014 to assist the Afghan 
security forces--the minimum number recommended by recently retired 
Gen. Jim Mattis of Central Command. If the U.S. were to ante up, our 
allies would probably provide another 6,000 or so troops, bringing the 
total coalition presence to around 20,000. That is still short of the 
30,000 or so troops that ace analysts Fred and Kim Kagan have argued 
would be needed to maintain robust operations in eastern and southern 
Afghanistan--but it should be sufficient, if just barely, to avert 
disaster. It is especially important that the U.S. continue to provide 
air support and medevac capability since Afghanistan will not have a 
functioning air force before 2017 at the earliest.
    Unfortunately the administration is hinting it will send 
substantially fewer troops--the President has told NATO to begin 
initial planning for a force of 8,000 to 12,000 troops. The U.S., which 
has historically provided two-thirds of all coalition forces, 
presumably would provide no more than 5,400 to 8,000 of the total. That 
is such a low figure that U.S. troops would have trouble sustaining and 
defending themselves, much less projecting power to outlying regions. 
That, in turn, will make it hard for the Afghans to fight effectively 
and thus increase the risk of the army fracturing along ethnic lines, 
with the Pashtuns making common cause with the Taliban and the Tajiks, 
Hazaras, and Uzbeks recreating the Northern Alliance. Such an outcome 
would plunge Afghanistan back into the disastrous civil war of the 
1990s which led to the rise of the Taliban in the first place.
    President Karzai can help to avert this dire fate by being more 
cooperative in efforts to negotiate a status of forces agreement with 
the U.S. that would allow our troops legal immunity. He does not want 
to make the mistake that Prime Minister Nouri al-Maliki of Iraq made: 
He tried to drive a hard bargain, only to have Obama walk away from the 
negotiations and pull all U.S. troops out. That remains a possibility 
in Afghanistan, too, especially if Karzai continues to bad-mouth the 
U.S. publically, thereby undermining American support for a continuing 
commitment.
    In addition to keeping a substantial contingent of advise-and-
assist and Special Operations troops after 2014, the U.S. must launch 
an immediate campaign to counter Pakistan's destabilizing efforts in 
Afghanistan. The model is the covert campaign mounted by U.S. forces in 
Iraq in 2007-2008 to blunt the influence of Iran's Quds Forces, which 
involved doing everything from arresting and deporting Iranian 
operatives to publicizing their machinations. The U.S. must recognize 
that Pakistan's Inter-Services Intelligence is our enemy in Afghanistan 
and act accordingly, instead of clinging to the fiction that the 
Pakistanis are our friends and allies. Nor should we cling to the 
illusion, so beloved of diplomats, that Pakistan can be induced to 
jettison the Taliban as a part of some kind of regional ``grand 
bargain'' involving Iran, China, and Russia. That is about as likely to 
occur as a breakthrough in Israeli-Palestinian negotiations, another 
chimera pursued by generations of diplomatists.
    Given that we have less need of Pakistani support than we once did 
to target 
al-Qaeda's much-weakened central organization, we should also not be 
afraid of using drones and, if necessary, Special Operations raids to 
target Taliban leaders and arms caches in Pakistan--something we have 
not done to date for fear of offending Islamabad. It is shameful that 
the Taliban are allowed the free run of towns such as Chaman, a 
Pakistani border crossing facing the Afghan town of Spinbaldak in 
Kandahar province. Coalition air strikes would not defeat the Taliban 
but they would break Taliban leaders' sense of impunity and keep them 
balance as U.S. troops draw down.
    Finally to the subject you have highlighted in this hearing: I 
believe the U.S. Government must become more active in shaping the 
outcome of the Afghan Presidential election. Ballot fraud is likely to 
be prevalent again, as it was in 2009, but that need not be fatal since 
the outcome is likely to be determined not in the actual voting but in 
backroom deals among political bosses--as was the norm in an earlier 
period of American history. Talks are currently going on among 
powerbrokers in Kabul, what some jocularly refer to as the ``Afghan 
primary,'' to sort out a long list of Presidential wannabes such as 
Education Minister Farooq Wardak; former Karzai chief of staff Umer 
Daudzai; former Finance Minister Ashraf Ghani; former Interior Minister 
Ali Jalali; the President's brother, Qayum Karzai; former intelligence 
chief Amrullah Saleh; former Presidential candidate (and Foreign 
Minister), Abdullah Abdullah; and even the Afghan-American former U.S. 
Ambassador, Zalmay Khalilzad.
    The U.S. Government was burned by its experience in 2009 when 
efforts by former Ambassador Karl Eikenberry and the late special envoy 
Richard Holbrooke to encourage a more competitive election were 
interpreted by Karzai to mean that the U.S. was trying to block his 
reelection, thereby making him even more difficult to deal with once he 
secured a suspect victory. As a result, U.S. Embassy officials today 
are loathe to discuss Presidential candidates, even in private, for 
fear of appearing to choose sides. This crippling reticence only 
increases the prospect of either a deadlocked process or the emergence 
of discredited front-runner, e.g., Qayum Karzai, who would have a hard 
time winning credibility either in Afghanistan or in the West. Instead 
of standing on the sidelines, the U.S. needs to use its considerable 
clout--including, if necessary, the bags of cash the CIA has been 
providing to President Karzai--to ensure the selection of the strongest 
possible President, one who would take on warlords and the Taliban more 
effectively than the incumbent has done.
    Based on the current situation, I would put the odds at roughly 55-
45 percent that Afghanistan will be able to avoid a civil war and a 
possible return to Taliban rule. That is more optimistic than the 
pessimism which prevails in the U.S., where most people wrongly assume 
the war is already lost, but it is hardly a ringing endorsement. With 
the relatively modest steps outlined above, however, President Obama 
could dramatically increase the odds of success.

    Senator Casey. Mr. Boot, thank you very much.
    What I am hearing from a lot of the members or several of 
the members of this panel is we better have our eyes wide open, 
that the reality of an election is not always what is in the 
civics books. You are right. And that is why we have these 
hearings where we have not just two panels, but I think in some 
ways two different vantage points.
    Let me go back to this question of either the reality of 
interference or the perception thereof. Dr. Wilder, you have 
talked a little bit about this. Mr. Boot, there seems to be 
some conflict here. What is your reaction to, or your comment 
on, that interference question, especially in light of what Mr. 
Boot said? We try not to create arguments within the panel, but 
sometimes it is helpful and illuminating.
    Dr. Wilder. Yes, I think it is helpful to go back to 2009 
and look at that because I often think that the wrong lessons 
have been learned from 2009. I think trying to pick favorites 
is not something we should be doing, as I mentioned in my 
testimony, for a number of reasons. One reason is we do not 
have a track record that is terribly good in getting that 
right. We only have to go back to November 2001 at a conference 
in Bonn where we actually played an instrumental role in 
picking a winner--now I think we do not feel that went 
according to plan. But there has been a track record of 
actively backing President Karzai in the past as our candidate, 
our man.
    I have actually a lot more confidence in the Afghan voters 
in terms of picking their next leader than in our ability to 
hand-pick the right successor. It is critical that whoever 
becomes President next is perceived as legitimate. The more it 
is perceived that our fingers are on it, trying to determine 
who the winner will be, the greater the risk that whoever ends 
up in that position will be perceived as less legitimate.
    The lesson from 2009 is do not interfere by picking 
favorites, but do interfere by trying to ensure that this 
election is going to be held on as level a playing field as 
possible. Do interfere in terms of trying to ensure much more 
rigorous fraud mitigation measures for this election, trying to 
put pressure on in terms of the electoral laws, but in 
particular, signaling that the elections are the U.S. 
Government's No. 1 foreign policy priority in Afghanistan for 
this coming year. The security transition and the economic 
transition cannot succeed without the successful political 
transition. If we can give more confidence to the Afghans that 
the United States is behind these elections, we will see more 
Afghans stepping up to the plate to actually start contesting.
    Every night in Kabul, the political elite are meeting and 
wheeling and dealing, and electoral politics is happening. And 
I think that is actually one of the most encouraging things 
about what is happening in Afghanistan today. Many of these 
elites have done fabulously well in the last decade and have a 
lot of vested interests in making sure that the country does 
not fall apart.
    We should be actively looking at ways to support consensus 
building efforts that are trying to create coalitions to 
contest the next election. Some of them are holding back 
because they are concerned about whether there will be 
elections. Why put your life on the line and put your resources 
on the line to contest an election that likely will not happen? 
There is no confidence that President Karzai's No. 1 objective 
is to hold elections. That is where we need to be continuing to 
make strong statements that this is our priority. That will 
give incentives to the Afghan candidates to start campaigning.
    I do not like to use the word ``opposition'' because we are 
going into an election where President Karzai, by the 
constitution, is not allowed to contest. We need to look at all 
the candidates on an equal basis, not government versus 
opposition.
    So again, do not support individuals but do interfere in 
supporting the process.
    Senator Casey. And I want to continue this line of 
discussion, but I have to say for the record probably a lot of 
Members of Congress over the last couple years have been pretty 
critical of Mr. Karzai. I am one of them. In fact, for a couple 
of years, I was probably one of the leading critics, and that 
is on the public record. I am sure he does not recall that, but 
I was.
    The last time I saw him--the first time I met him was in 
2008 and then 2009 within a day or 2 of the election. And I and 
others pressed him on making sure that now that the election 
had taken place, that they take steps to meet the legitimate 
expectations of the people. And of course, he assured us he 
would.
    I did not have a chance to see him when I went back in 
2011, but I did see him earlier this year when he came to 
visit, just a brief visit on Capitol Hill. We were actually in 
Senator McConnell's office, and it was just a small group of 
us.
    But I said that to him. I said I have criticized you a lot 
in the past, and I am going to try to refrain from that today 
and say that you should use this opportunity to make sure that 
you have an election and it goes well, and that will be your 
legacy and not something else. Of course, he, I guess, somewhat 
agreed with that but then seemed to be critical of us in not 
interfering in a process that he does not seem to conduct very 
well.
    But, anyway, let me get back to the question of 
interference. Ms. Chayes, I know you have raised a lot of 
concerns about what happened last time in your testimony and 
how we prepare for this. What is your view on this question of 
interference?
    I think it is an interesting idea that a really tough, 
aggressive imposition or us having an impact on the rules and 
how the election is conducted could be seen as interference but 
might be the most constructive way that we have an impact apart 
from or separated from the question of picking a candidate. 
Maybe that is an area where we can agree that if we institute 
or push them to institute as rigorous a process as possible, 
that that might be the best.
    What is your view on what you have heard from your two 
colleagues here and how you view it?
    Ms. Chayes. I would probably concur with what you just said 
and what Dr. Wilder said.
    I guess I just have to again try to impress on you and on 
the record what ``rigorous'' would have to mean. So, again, you 
just phrased the issue of the vetoes by President Karzai of the 
IEC and ECC structures. What do we do? How do we participate in 
making this a credible and free and fair exercise if the two 
bodies charged with running it belong to President Karzai? 
Honestly. We are really in a bind because, on the one hand, we 
are saying there has to be an election. It has to be Afghan-
managed, Afghan-led. And on the other hand, if Afghan-managed, 
Afghan-led means Karzai-managed, Karzai-led, you know, do we 
fund the exercise anyway? If we decide not to fund it, Karzai 
is thrilled. Great. No election.
    So I have to say I do not have a great answer to that 
question, but I do not think picking the guy, fundamentally 
because we do not have a great track record, is probably the 
right solution. On the other hand, continuing to pay one of 
them--so one of the things I think is really important, if we 
care how things work out in Afghanistan, is arbitrating between 
the different USG equities that are at play here because if we 
are paying President Karzai, it does not matter what you say to 
him or what any other member of the U.S. Government says to 
him, including the Chairman of the Joint Chiefs of Staff or the 
Secretary of State, up to the President. Once he is getting 
money from the Central Intelligence Agency, that strengthens 
him to do whatever he wants in spite of anything that any other 
member of the U.S. Government, with the exception of the 
President, could say.
    So I think that is really important issue to think about. 
If he or somebody chosen by him is a candidate--I mean, he will 
not be, but if there is some Karzai proxy who is a candidate, 
which I think is really likely, is that person on the payroll? 
Does that get debated at a principals' committee meeting? So it 
is one thing to say we should not pick an ``opposition'' 
candidate, but therefore we need to really be clear about where 
is our private bags of cash. Where are they going?
    I think another really important aspect of this that has 
not been brought up but has to do with the security, which is 
to say--and I did bring it up at ISAF in 2009--are we 
construing our mandate to protect the security of these 
elections as a mandate to protect it from intimidation from the 
government, as well as intimidation from the Taliban? That was 
not a question that got a very coherent answer. I think that is 
a really important issue to think about this time. If we are 
really about protecting the integrity of the process, that 
means we have to be just as rigorous about violations of that 
integrity, physical violations that are caused by non-Taliban 
as well as ones that are caused by Taliban.
    Senator Casey. Mr. Boot, if I keep giving you the last 
word, that is an advantage to you. Let me just ask you more 
precisely because you have addressed it. Is the question of 
interference perceived or in reality? A, I guess you would say 
that that is not a great concern for you. I guess what would 
you place greater reliance on or place greater weight on? 
Actually getting involved in picking a candidate, as you seemed 
to hint at, or being much more focused on the rules imposing a 
free and fair election as best we can? What do you think is the 
preferable path?
    Mr. Boot. Well, in terms of avoiding the perception of 
interference in Afghan elections, as my colleagues and Sarah in 
particular have pointed out, we are interfering right now, and 
Afghans know that. I mean, they know we are giving bags of cash 
to Karzai. So it does not really matter what we do. We are 
going to be seen as interfering. At the moment, we seem to be 
interfering to buttress a President who is deeply enmeshed in 
this corruption and dysfunctionality that grips his country.
    All I am saying is instead of taking a completely hands-off 
attitude, let us interfere or try to interfere in a more 
positive direction, and I do not think that is impossible. I 
mean, it is true that we made a mistake in hindsight, I think, 
in picking Karzai at the end of 2001, and it is quite possible 
we might make another mistake in the future. But at least I 
would draw some solace from the fact that at the end of 2001, 
we knew very little about Afghan politics. At least we have had 
a dozen years since then to hopefully--hopefully--and I am not 
sure it has happened, but hopefully have a little bit of a 
learning process within the USG and at least a little more 
familiarity with who the players are, what they stand for, and 
the intricacies of Afghan politics. So I think there is a 
slightly better chance that we might get it right this time 
than we did last time.
    You know, as a historian, I would point you to a historical 
example which was the way that we defeated the Huk rebellion, 
the Communist uprising in the Philippines in the late 1940s/
early 1950s. The most important thing we did was to send one 
man to the Philippines, Edward Lansdale, who was a CIA 
operative, as well as an Air Force officer. And the most 
important thing he did was to befriend a gentleman named Ramon 
Magsaysay, who just a Filipino state senator when they met, but 
with Lansdale's support and the support of the CIA, they 
managed to get Magsaysay promoted, first to Defense Minister, 
and then Lansdale was virtually his campaign manager to help 
him win the Presidency of the Philippines. And Magsaysay was 
the best thing that ever happened to the Philippines because he 
was honest. He was strong. He fought corruption and abuse in 
the army, and he managed by those methods to defeat the Huk 
uprising. That is an example that I think we need to be 
cognizant of.
    In the case of Afghanistan, certainly I am not, by any 
means, saying we should give up on the election. I agree with 
my colleagues. We need to do everything possible to have a free 
and fair election. And I hope I am not being overly cynical 
here by suggesting that is not likely to happen. I mean, if it 
did not happen in Chicago in the old days, it is not going to 
happen in Afghanistan today I think especially when our troop 
presence is going to be so markedly reduced.
    But just as in this country, I mean, we have free and fair 
elections, but let us be honest. There is a primary process 
that happens even before anybody casts a vote. In the last 
election, I think people generally knew that Mitt Romney was 
going to be the Republican candidate well in advance of the 
first primaries or caucuses because he, in effect, won this 
preprimary for the backing of donors and other power brokers 
within the Republican Party.
    The exact same thing is happening in Afghanistan right now, 
and certainly Karzai and the ISI and the Iranians and others--
they are casting their votes, and the question is, Are their 
votes going to be decisive? Are we going to do something to try 
to counterbalance their vote by trying to push forward a leader 
who will truly not be an American puppet--that is not what I am 
looking for--a strong leader who will truly have the interests 
of Afghanistan at heart? And that leader may well do things 
that exasperate us in the way that DeGaulle did, for example, 
in France, but nevertheless somebody who would not be a cat's 
paw of the ISI or Iranians or the warlords. I think that is 
what Afghanistan needs, and I think in many ways the only 
chance that the political process has to produce somebody like 
that is with a little outside assistance from us.
    Senator Casey. I am reminded that in this country it took 
most of 100 years before a lot of places, a lot of States got 
the secret ballot. So it took us a while.
    I know we have to wrap up. But I guess in more of kind of a 
lightning round, if you could just outline the two or three 
steps--you might have four or five, but if you could prioritize 
one or two steps that we should take really in the next several 
months or the next 6 months to get the result that we hope for, 
which is a free and fair election. We will set aside the 
question of who wins or what is the optimal, but to get as free 
and as fair an election as possible. Any quick summary of one 
or two steps that we should take.
    Dr. Wilder. I would come back to the point--how do we make 
clear that this is, for the next year, the No. 1 U.S. 
Government priority? And I think that is where the appointment 
of an ambassador-rank official in that role would be one way of 
signaling that, but then also following up with frequent high-
level statements of their importance to the U.S. Government 
because, as I said, this is where there is a mismatch. We do 
often say that the elections are a priority, and we say the 
right things about them, but Afghans still need to hear it more 
often because they remain skeptical. Just in the last two trips 
I made to Afghanistan in March and April, 
it was striking to me how many Afghan politicians referenced 
then-Senator Kerry's confirmation hearings in front of this 
committee where he very clearly spoke about the importance of 
the elections as a priority issue. That created very positive 
vibes in Kabul and gave a little encouragement to those who do 
believe in the elections.
    Just last week, here at USIP we hosted a fairly prominent 
Afghan opposition figure, and one of his key points was, in 
terms of the priorities in the elections, fight the doubt, 
because it is easy to think of all the reasons why elections 
will not be possible in Afghanistan, and if we really give into 
that, the skepticism will become self-fulfilling. We have to 
believe the elections can happen and then prepare for them with 
the measures I mentioned. Afghans will then take the lead to 
make sure that they do, indeed, happen.
    But the final point to emphasize is that while there is a 
supply side to this which requires financial and technical 
support to electoral institutions to manage the elections, we 
also need to focus on the demand side, with early support to 
civic education. The media play an incredibly important role. 
The Afghan public needs to also feel that the elections are 
going to happen and we need to work 
on the demand side. Too often, civic education is left as an 
afterthought until just before the election. We need to be 
investing in and supporting those efforts earlier than in past 
elections.
    Thank you.
    Senator Casey. Thank you.
    Ms. Chayes.
    Ms. Chayes. I am going to change the aperture a little bit.
    I tend to agree with Mr. Boot that it is very unlikely that 
we will supply what it takes to actually make this exercise 
truly free and fair and credible.
    I actually think there is something quite different we 
could do that could help set the conditions which would have to 
do with expanding the scope of the reconciliation process. I 
think we have been stuck in a rut which has been speaking to 
just one interlocutor or trying to speak. We have not even been 
speaking to one interlocutor, which is to say the armed 
opposition. But it turns out that most Afghan constituencies 
have severe issues with the Karzai government and with the way 
the Afghan Government has been executing its duties or not 
since 2001.
    I think this reconciliation process needs urgently--and it 
ought to be U.S. Government policy urgently--to expand this 
reconciliation process to include those constituencies. I would 
give the current Afghan Government a seat but not a gavel, and 
I would not give Pakistan a seat, and that is a whole other 
issue, but that has the impact of rewarding the deliberate use 
of violent extremists as an instrument of public policy on the 
part of Pakistan.
    But if you get a process like that going--and there have 
been a couple of experiments of late in France, in Japan, but 
in particular in France over the last few months or last 6 
months or so that indicate that this is a doable process. We 
have not been interested. President Karzai has extremely not 
been interested. And again, it has to do with a little bit of 
political will on our part to force a conversation, a 
multipolar conversation. And I think a process like that could 
start to work out what a lot of the equities are so that an 
election at the far end of it--there would be less incentive to 
try to rig an election at the other end of it.
    Thank you very much. And thanks again for your interest.
    Senator Casey. Thank you.
    Mr. Boot.
    Mr. Boot. Mr. Chairman, I think there is a crisis of 
confidence in Afghanistan right now. At least that is what I 
saw and heard about when I was there a few weeks ago. Property 
prices are falling. The amount of money exiting the country is 
increasing. Afghans do not have a lot of confidence in their 
post-2014 future.
    I think the most important thing we can do right now, as 
early as possible, is to signal what our level of commitment 
post-2014 is going to be. I think that will increase 
confidence. It will also boost our influence and our ability to 
try to influence the future of Afghanistan in a positive 
direction, whether you think all we should be doing is trying 
to protect the integrity of the balloting process or whether 
you believe, as I do, that I think we need to take a more 
robust role. Whatever that role is, I think we will enhance our 
influence by signaling what our level of commitment will be 
because up until now, we have said we will stay committed, but 
there is a big difference between levels of commitment and the 
higher the level of commitment that we express, the more 
confidence that the government and supporters of the government 
will have and the more we will demoralize and weaken the 
Taliban. So I think that is the most immediate thing that we 
can do to affect the calculus in Afghanistan.
    Again, I would just stress that I mentioned in my opening 
statement I think we need to do much more to counter ISI 
influence.
    As we were discussing earlier, I also believe that we need 
to play a more robust role in helping to select a strong leader 
for Afghanistan. But the first thing I think is just to signal 
that we will have a robust commitment post-2014.
    And I thank you for inviting me. It is a pleasure to 
testify with two leading experts. I am glad you are interested 
because I think one of the biggest problems we face right now, 
quite frankly, is there is not a lot of interest in the future 
of Afghanistan in this country. So I am glad you are staying 
focused on it. Thank you for inviting me.
    Senator Casey. Thank you. Thanks to all of our witnesses.
    The record will be open for questions for--I think, it is 5 
days. We will correct the record if it is not.
    And I also wanted to mention--I did not at the beginning--
that the resolution that Senator McCain and I introduced was 
cosponsored by Chairman Menendez. So that is good news.
    But we are done for today, but I am sure we will be able to 
call upon each of you for further insight as we get closer to 
this election day, which I realize has a lot of problems 
connected to it. So we have got more work to do.
    But thanks very much.
    We are adjourned.
    [Whereupon, at 5:30 p.m., the hearing was adjourned.]
                                ------                                


              Additional Material Submitted for the Record


 Responses of Deputy Special Representative David Pearce to Questions 
               Submitted by Senator Robert P. Casey, Jr.

    Question. In recent Afghan elections, key decisions were determined 
by the Supreme Court. Many have expressed concern that members of the 
Afghan Supreme Court have remained in their posts beyond expiration of 
their terms and the President has yet to appoint replacements.

  <bullet> If there are no new appointments to the Supreme Court and 
        that body does end up providing judgments related to the 
        elections, how will the Afghan public react?
  <bullet> Which regions might you anticipate a need for funding that 
        is not in the current budget request?

    Answer. Afghanistan and its allies have a common interest in 
ensuring a peaceful, democratic transfer of authority from President 
Karzai to his successor through elections accepted by the Afghan public 
as credible and legitimate. The Supreme Court may play a significant 
role in the electoral process if it rules, as it has in the past, on 
fundamental constitutional matters related to the elections.
    In his July 2012 decree specifying measures to address corruption, 
President Karzai pledged his support for improving judicial and 
prosecutorial institutions. Our Embassy and international partners have 
since discussed with senior Afghan officials the need to remove Supreme 
Court Justices whose constitutional terms have expired or will expire 
before the 2014 elections and to nominate credible and independent 
replacements. While we do not have a formal response, we continue to 
raise this issue. Legitimately serving Supreme Court Justices will help 
legitimize all of the Court's decisions, including any on elections, 
and will help to instill confidence in the process.
    Opposition figures and a number of prominent parliamentarians have 
stated publicly that they would not accept any Supreme Court decision 
as valid if there are Justices sitting on the bench beyond the 
expiration of their constitutional terms. Serious disagreements over 
the legitimacy of the Court's composition and, therefore, the validity 
of its rulings could lead to constitutional gridlock at a time the 
Court could be called to issue critical decisions related to the 
elections.
    Regarding the potential need for additional budgetary resources, 
U.S. Government advisors are currently working with Afghanistan's 
Independent Election Commission to finalize operational and contingency 
planning and determine budget allocations from the Government of 
Afghanistan and other international donors, including the United 
States.

    Question. Will the United States designate an ambassador-level 
point person in the Embassy in Kabul to focus solely on electoral 
issues prior to April 5, 2014?

    Answer. The 2014 elections are the top political priority for our 
mission in Kabul and our diplomats understand that the 2014 
Presidential election will determine the future stability of 
Afghanistan and the region. The Embassy regularly consults with Afghans 
throughout the country to help them carry through on their commitment 
to hold credible, inclusive, and democratic elections. Given sustained 
senior-level Embassy attention, we currently do not see a need to 
appoint a full-time elections Ambassador but would consider this in the 
near future if our regular staffing needs assessments determine that 
such a position is warranted. At present, we are satisfied with our 
mission structure, which includes five civilians in Afghanistan who 
hold the rank of Ambassador, led by our Chief of Mission Ambassador 
James Cunningham. Ambassador Cunningham, reflecting the Secretary's own 
personal commitment, is actively involved in our 2014 elections effort 
and guides our full calendar of engagement efforts to support the 2014 
political transition.
    All ambassadors track election developments closely, notably 
Assistant Chief of Mission Ambassador Hugo Llorens, who is the 
Embassy's primary point of contact on elections. On an almost daily 
basis he meets with Afghan Government officials, political party 
leaders, Afghan National Security Force commanders, civil society, and 
international partners to assess progress on elections and deliver 
consistent U.S. policy messages of support for all aspects of planning 
for this historic event.
    Secretary Kerry, who has direct experience with Afghanistan's 2009 
Presidential election, has made the 2014 political transition one of 
his top priorities. He raises this issue in all his conversations and 
meetings with President Karzai and other high-level Afghan officials, 
most recently in Kabul in March and in Brussels in May, as Deputy 
Secretary Burns did during his May visit to Kabul. The elections are 
likewise a top priority for our newly appointed Special Representative 
of Afghanistan and Pakistan (SRAP), Jim Dobbins, who discussed the 
elections during his meeting with President Karzai May 29.

    Question. During his confirmation hearing, Secretary Kerry said the 
following in response to my question about election preparations in 
Afghanistan: ``Having an election that passes muster and is acceptable 
according to international observers and standards will be critical to 
our ability to have the kind of transition we want to have, and to have 
confidence that the government that succeeds in 2014 has legitimacy. If 
it does not have legitimacy, if we do not succeed in that effort, it is 
going to be very, very difficult to convince the American people and 
convince our allies in ISAF and beyond to stay engaged in this effort 
if they are not willing to provide for themselves with respect to 
that.''

  <bullet> One of the provisions of the Tokyo Mutual Accountability 
        Framework addresses elections. Is the State Department prepared 
        to withdraw, or condition, some U.S. assistance to Afghanistan 
        on a transparent, credible election process and outcome?

    Answer. We have consistently emphasized throughout the past year 
the statement of fact from the July 8, 2012, Tokyo Mutual 
Accountability Framework (TMAF): ``The International Community's 
ability to sustain support for Afghanistan depends upon the Afghan 
Government delivering on its commitments described in the Tokyo 
Framework.'' The Afghan Government has not yet enacted new electoral 
legislation that would serve as the framework for the 2014 Presidential 
and provincial council elections and the 2015 parliamentary elections, 
a TMAF indicator of its commitment to ``Representational Democracy and 
Equitable Elections.'' Afghan authorities must urgently and 
transparently enact reforms that will inspire widespread confidence in 
the electoral process and enable a free, fair, and credible election. 
The July 3 Senior Officials Meeting in Kabul is the first opportunity 
to assess Afghan progress on TMAF reforms and plan for continued 
constructive cooperation in the lead up to April elections.
    We will reiterate our commitment to the people of Afghanistan and 
the development of its democracy. In the spirit of mutual 
accountability, we will also continue to press for electoral and other 
critical reforms to justify our continued extraordinary assistance. We 
are considering the use of incentive funding mechanisms to encourage 
action on Tokyo reforms, but in ways that do not jeopardize the 
progress we seek in the Tokyo indicators. As called for in the Tokyo 
Framework, international donors will gather in London after the 2014 
Presidential elections to assess progress and review our commitments.

    Question. Last June, I sent a letter to Secretary Clinton 
expressing my concerns about the Independent Electoral Commission (IEC) 
and Electoral Complaints Commission (ECC). President Karzai's recent 
veto of the electoral law demonstrates his intransigence and desire to 
control the electoral process. I understand that the lower House of 
Parliament has passed another draft law and may be considering 
overriding President Karzai's veto.

  <bullet> What is the State Department doing to press President Karzai 
        to work cooperatively with the Parliament to agree on an 
        acceptable electoral law?
  <bullet> What would be the consequences of failure to pass an 
        electoral law before candidate registration is scheduled to 
        begin?

    Answer. We are monitoring electoral legislation closely, and have 
underscored the importance of this legislation being adopted as a 
matter of great urgency. There are two laws of particular importance: 
the Independent Elections Commission (IEC) Structure Law, and the 
Electoral Law. President Karzai vetoed and sent the IEC Structure Law 
back to Parliament on April 27, arguing that a number of the draft's 
provisions were unconstitutional. Parliament has since been debating 
whether to attempt to override Karzai's veto or to resubmit a revised 
draft that addresses Karzai's concerns. We are urging both the Palace 
and Parliament to adopt the IEC Structure Law and the Electoral Law 
well before candidate registration begins in September and preferably 
before Parliament begins a 6-week recess in early July. SRAP Dobbins 
reinforced this message during his visit to Kabul this week. We have 
and will continue to strongly encourage the creation of independent and 
credible electoral authorities and transparent and credible electoral 
processes through these new laws. Voter registration began this week 
and time is of the essence for establishing critical institutions 
necessary to make sure a credible framework is in place, especially an 
independent electoral complaints mechanism. Meanwhile, since this is an 
Afghan-led process, we strongly encourage broad consultations among the 
IEC, the Afghan Government, Parliament, political opposition groups, 
civil society leaders, and other legitimate stakeholders on important 
decisions regarding the new electoral law framework and the selection 
of election commissioners.
    Without new electoral laws, the 2010 Presidential decree on 
elections will govern the election process, including the method for 
candidates to nominate themselves and for their nominations to be 
vetted, a process that begins in September. This 2010 decree requires 
the President, in consultation with the Parliament and the Supreme 
Court, to establish an Electoral Complaints Commission to adjudicate 
complaints. Our strong preference and goal is the adoption of credible 
IEC and electoral laws to further bolster Afghanistan's democracy.
                                 ______
                                 

                Responses of David Sedney to Questions 
               Submitted by Senator Robert P. Casey, Jr.

    Question. What special preparations is NATO Training Mission 
Afghanistan (NTMA) making to ensure that Afghan troops working to 
safeguard elections take special care to ensure that women can safely 
participate in the 2014 elections?

    Answer. In accordance with the overall security transition and 
respect for Afghan sovereignty, the International Security Assistance 
Force (ISAF) and its subordinate commands, including the ISAF Joint 
Command (IJC) and the NATO Training Mission Afghanistan (NTM-A), will 
maintain a support role during the elections process. ISAF will be 
prepared to take action only when requested by the Afghan Government 
and support will likely focus on logistics, intelligence, route 
clearance, and in extremis support. This support will help promote an 
inclusive and secure election; however, further measures to promote the 
participation of women are the responsibility of the Afghans.
    Preparations and planning for the 2014 elections, including 
promoting the participation of women, are an Afghan-led process. Both 
the Independent Elections Commission (IEC)--which has the lead for 
administration of the elections process--and the Ministry of Interior 
(MoI)--which has the lead for security--are taking measures to 
encourage increased female participation in the elections, including 
the current voter registration and outreach education phase of the 
election process.
    For the voter registration effort, the IEC was able to recruit a 
significant number of female officials, including for the first time in 
some insecure provinces. The IEC is actively working with civil society 
and local administrations to engage women in the voter registration 
process. Additionally, the IEC is carrying out a voter education 
campaign through public outreach officers and informational broadcasts, 
which will include messaging on female participation. Finally, the IEC 
plans to conduct consultations with community religious leaders, with 
special attention on women's participation in the elections.
    During previous elections, female participation on election day was 
limited by insufficient female staffing at the separate women-only 
polling facilities. Recognizing this as a key issue, the Afghans are 
adjusting their plans to account for this shortfall. The MoI and IEC 
are considering a proposal to hire women temporarily from the private 
sector to be trained as security screeners for the approximately 7,000 
polling centers.

    Question. The United States has provided significant logistical 
support to past 
Afghan elections, and Afghan troops lack the same level of capability. 
Will the United States continue to provide logistical support to the 
2014 election, even though the coalition troop levels will likely be 
diminished?

    Answer. The current plan to draw down to a level of 34,000 U.S. 
forces by February 2014 is consistent with Commander, U.S. Forces-
Afghanistan's recommendation and will provide enough forces to support 
the Afghans through the April 5, 2014, election. In accordance with the 
overall security transition and respect for Afghan sovereignty, the 
elections process will be Afghan-led. However, the International 
Security Assistance Force (ISAF), including U.S. forces, will be 
prepared to assist if requested by the Afghan Government. ISAF has 
identified logistics as an area where the Afghans will likely need 
international assistance and is planning accordingly. For the first 
phase of voter registration, ISAF has provided air support to the 
Afghans for the delivery of voter registration materials to a select 
number of provinces. With this assistance, all voter registration 
materials arrived on time to intended destinations to allow for the 
first phase of voter registration to begin at the end of May.

                                  <all>

</pre></body></html>
